<html>
<title> - DEEP IMPACT: ASSESSING THE EFFECTS OF THE DEEPWATER HORIZON OIL SPILL ON STATES, LOCALITIES, AND THE PRIVATE SECTOR</title>
<body><pre>[Senate Hearing 111-909]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-909
 
 DEEP IMPACT: ASSESSING THE EFFECTS OF THE DEEPWATER HORIZON OIL SPILL 
             ON STATES, LOCALITIES, AND THE PRIVATE SECTOR

=======================================================================

                                HEARING

                               before the

                  AD HOC SUBCOMMITTEE ON STATE, LOCAL,
                    AND PRIVATE SECTOR PREPAREDNESS
                            AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2010

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
58-033                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                        MARK L. PRYOR, Arkansas
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
                     Donny William, Staff Director
                  Ryan Tully, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Pryor................................................     1
    Senator Ensign...............................................     4
    Senator Lieberman............................................     5
    Senator Landrieu.............................................     7
    Senator Brown................................................     7
    Senator Burris...............................................     7
Prepared statements:
    Senator Pryor................................................    53
    Senator Burris...............................................    56
    Senator Lieberman............................................    57

                               WITNESSES
                        Thursday, June 10, 2010

Hon. Bill Nelson, a U.S. Senator from the State of Florida.......     8
Hon. David Camarelle, Mayor, Grand Isle, Louisiana...............     9
Billy Nungesser, Presdient, Plaquemines Parish, Louisiana........    12
Mark A. Cooper, Director, Louisiana Governor's Office of Homeland 
  Security and Emergency Preparedness............................    15
Hon. Juliette Kayyem, Assistant Secretary of Intergovernmental 
  Affairs, U.S. Department of Homeland Security..................    30
Rear Admiral Roy Nash, Deputy Director, Federal On-Scene 
  Commander, Deputy Unified Area Commander, U.S. Coast Guard.....    33
Ray Dempsey, Vice President of Strategy, BP America, Inc., 
  accompanied by Darryl Willis, Vice President for Resources, BP 
  America, Inc...................................................    41

                     Alphabetical List of Witnesses

Camarelle, Hon. David:
    Testimony....................................................     9
    Prepared statement...........................................    60
Cooper, Mark A.:
    Testimony....................................................    15
    Prepared statement with attachments..........................    67
Dempsey, Ray:
    Testimony....................................................    41
    Prepared statement...........................................   139
Kayyem, Hon. Juliette:
    Testimony....................................................    30
    Prepared statement...........................................   129
Nash, Rear Admiral Roy:
    Testimony....................................................    33
23Nelson, Hon. Bill:
    Testimony....................................................     8
Nungesser, Billy:
    Testimony....................................................    12
    Prepared statement with attachments..........................    63

                                APPENDIX

Eddie C. Williams, City Attorney, City of Pascagoula, 
  Mississippi, prepared statement................................   146


                 DEEP IMPACT: ASSESSING THE EFFECTS OF
                   OF THE DEEPWATER HORIZON OIL SPILL
                     ON STATES, LOCALITIES, AND THE
                             PRIVATE SECTOR

                              ----------                              


                        THURSDAY, JUNE 10, 2010

                                   U.S. Senate,    
               Ad Hoc Subcommittee on State, Local, and    
             Private Sector Preparedness and Integration,  
                      of the Committee on Homeland Security
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senators Pryor, Landrieu, and Ensign.
    Also Present: Senators Lieberman, Burris, Nelson, and 
Brown.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I will go ahead and call this hearing of our 
Subcommittee to order. I want to thank everyone for coming to 
the Ad Hoc Subcommittee on State, Local, and Private Sector 
Preparedness and Integration. The topic of this hearing is 
called ``Deep Impact: Assessing the Effects of the Deepwater 
Horizon Oil Spill on States, Localities, and the Private 
Sector.''
    We have several Senators that are en route or who are 
scheduled to be here, and I want to thank Senator Landrieu for 
coming. We are actually expecting several Senators to be here 
and participate in this hearing, but I thought what I would do, 
in the interest of time--thank you for being here, Senator 
Lieberman. I thought what I would do in the interest of time is 
go ahead and do my opening statement, and then I will recognize 
Senator Lieberman for his statement and Senator Ensign for his, 
and I would also then recognize other Senators.
    But, first, let me thank Senators Lieberman, Landrieu, 
McCaskill, Burris, Brown, and Ranking Member Ensign, as well as 
Senator Bill Nelson, for being here today. And I want to thank 
all of our witnesses for being here today. We really appreciate 
your time and helping us on this Subcommittee understand and 
help the American public understand more of what is going on 
down in the Gulf Coast.
    I want to note that while our State and local panel is 
compromised solely of witnesses from Louisiana, we actually had 
invited other witnesses from Florida and Mississippi. But just 
due to scheduling conflicts, some of those at the last couple 
of days had to change their schedules and could not attend. But 
we really are looking forward to hearing from all of our 
witnesses.
    We are here to discuss the impact of the Deepwater Horizon 
oil spill on the affected States and localities and to 
determine the effectiveness of the joint Federal, State, and 
local response effort. We are over a month into this tragedy, 
and the size and the scope of that tragedy we are only now 
beginning to comprehend. We must begin learning the lessons of 
this event now and work to improve the process as we move 
forward.
    This hearing will focus on five main questions:
    One, what is the true impact of the oil spill on States and 
localities? And what are their outstanding needs?
    Two, what Federal plans have been activated to assist the 
impacted States and localities in responding to the spill, and 
are they working?
    Three, is additional Federal assistance needed to ensure 
that people impacted by this spill are able to survive the 
clean-up process?
    Four, what are the next steps in stopping the leak, and how 
does BP plan to clean up the heavily inundated areas along the 
coast?
    And, five, has BP set up a claim process that is fair and 
usable for those who have been adversely impacted by the oil 
spill?
    Fifty-one days ago, an explosion on the Deepwater Horizon 
oil rig began a series of events that have impacted our country 
in ways that will not be fully clear to us for some time. 
Eleven people died on the rig that night, a tragic loss of life 
for the families and friends of the workers lost at sea. While 
America grieved, very few imagined the depth of the impact that 
this event would have on our Nation.
    From the beginning, there was an apparent effort to 
downplay the severity of this spill. A BP executive predicted 
that the impact of the spill would be ``very, very modest.'' 
What we now know is that we are facing a truly unprecedented 
situation. Millions of gallons of oil have spewed into one of 
the richest and most unique ecosystems in all the United 
States.
    As you will hear from the testimony of the State and local 
officials who have joined us today, hundreds of miles of 
coastal wetlands have been affected, some unalterably. We may 
never know the extent of the loss of animal life or the degree 
of damage to the wetlands or the level of the damage done to 
the fishing stock.
    What we do know is that 51 days out from the beginning of 
this ordeal, the impact of the Deepwater Horizon oil spill is 
anything but modest. To date, there have been 413 oiled live 
birds, 592 dead birds collected by the U.S. Fish and Wildlife 
Service, 250 dead turtles collected, two mammals including 
dolphins that we know conclusively died as a result of the 
spill--and, by the way, there is a photo of dolphins; it is 
kind of hard to see in that photo, but dolphins swimming 
through the oil there--with 31 other mammals currently being 
tested.
    Over 78,000 square miles, which is about 35 percent of the 
Gulf of Mexico Federal waters, is closed to fishing. Fishermen, 
seafood processing plants, shippers, and other businesses have 
been forced to rely on payments from BP to supplement the 
income they would have otherwise earned fishing the waters of 
the Gulf Coast. Responding to a spill of this size, which is 
the largest in American history, has required enormous 
intergovernmental coordination.
    On Thursday, April 29, the Coast Guard declared the 
Deepwater Horizon a spill of national significance (SONS), as 
they say. The SONS declaration set into motion several Federal 
operational plans, including the National Contingency Plan, 
National Response System, Homeland Security Presidential 
Directive 5, and the National Response Framework. As a result, 
a massive effort to organize many different Federal resources, 
including the Department of Homeland Security (DHS), the U.S. 
Coast Guard, Mines Mineral Service, Fish and Wildlife Service, 
Evironmental Protection Agency (EPA), Department of Defense 
(DOD), National Oceanic and Atmospheric Administration (NOAA), 
the Department of Energy, and other agencies. In addition to 
coordination between Federal agencies, these plans govern the 
interaction between Federal, State, local, and private sector 
entities.
    It is critical that there is clarity of responsibility and 
a clear understanding of roles at each level of government. I 
intend to ask the Federal, State, local, and private sector 
witnesses to assess the effectiveness of these plans and the 
resulting response effort.
    BP's efforts to stop the flow of oil through the top kill 
and junk shots failed. BP has recently placed a cap atop the 
blowout protector and is now collecting several thousand 
barrels of oil a day. These are positive developments, but 
little comfort to Gulf Coast residents who are forced to watch 
the shoreline turn black and brown from oil inundation.
    Perhaps one of the most important questions we ask today to 
BP is: How do you intend to clean up these heavily inundated 
areas? And how much progress has been made in the clean-up to 
date?
    BP has committed itself to paying claims for individuals 
harmed by the spill. As I mentioned earlier, over 78,000 miles 
of fishing waters is off limits. In Louisiana alone, the 
seafood industry produces over $2 billion yearly. This means 
that thousands of Americans will have to rely on an approved 
claim by BP in order to put food on the table or pay the 
mortgage. I intend to gain a better understanding of the claims 
process and ultimately ask BP the hardest question of all to 
answer: At what point will BP no longer be able to pay?
    I am glad my colleagues from this Subcommittee have joined 
us. There are an infinite number of questions that need to be 
asked and answered. We are taking a small but immensely 
important piece today. The people of the Gulf Coast are facing 
a terrible degree of uncertainty in so many ways. Their 
employment, their communities, and their livelihoods are 
drifting at sea. We must ensure that the coordinated response 
is fully effective. We will not allow BP to short-change the 
public when their actions have led to such an unimaginable 
situation.
    So, again, I want to thank my colleagues for being here 
today, and let me call on Senator Ensign, the Ranking Member of 
the Subcommittee, for his opening statement.

              OPENING STATEMENT OF SENATOR ENSIGN

    Senator Ensign. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing. Before I start, I see our 
colleague from Louisiana here, and all the folks in the Gulf 
Coast just know that our thoughts and our prayers are with you. 
I know this is an unbelievably difficult time, and most of us 
in the country are just seeing it on television, but you all 
are living it out in your day-to-day lives. Our thoughts and 
our prayers with you.
    Other committees in both the House and the Senate have 
conducted numerous hearings on a wide array of issues relating 
to the oil spill. These have ranged from determining what 
caused the explosion, what the environmental impacts will be, 
and if anything could have been done to prevent this disaster 
from happening in the first place. Also, Admiral Allen has 
provided numerous, very detailed briefings regarding the status 
of the leak: how many barrels are being captured, and the 
extent of the spill's impact. I hope to get something different 
and unique out of this hearing.
    This Subcommittee was designed for a very specific purpose, 
and that is to examine if the States and localities are getting 
what they need from both the Federal Government as well as from 
the private sector. Additionally, I want to prove and see if 
there are various levels of government working together 
cohesively and ``jointly'' or, in military terms, as a ``total 
force.'' We need to find out if there are other assets which 
the States and localities need and have not been provided by 
either BP or the Federal Government. We need to identify here 
today what those gaps are, figure out what is the best way to 
fill them, and then begin to figure out how to proceed down 
that path. I also hope to hear what BP and others in the oil 
industry and the private sector are doing to aid the clean-up 
efforts.
    My good friend from Arkansas and I have worked together on 
numerous issues and pieces of legislation in a bipartisan 
fashion during our time here in the Senate, and if we identify 
today any additional congressional action that is required--and 
this Subcommittee has worked very well in a bipartisan 
fashion--I know we will do what is required, and our staffs 
will work together to get that accomplished.
    This hearing was designed in a very specific way. The 
States and localities were intentionally put on the first panel 
so that we could hear from you and force the Federal and 
private sector entities to listen to what is needed. Some 
specific questions and issues I would like to see raised and 
addressed are as follows:
    Are there adequate resources for the clean-up? Do we have 
enough skimmers in the water? Is there enough ocean boom? My 
understanding is that Alabama has only two skimmers and not 
enough boom. Will the Federal Government need to procure more 
of either? If we have other skimmers in our inventory, why are 
they not currently in the Gulf working?
    As a matter of fact, I was just watching television this 
morning about a private sector company that says that they can 
produce up to 90,000 feet of boom a day, and they have not 
gotten BP to approve that yet, and that is one of the issues 
that we want to explore this morning.
    I would like to get to the bottom of the sand berm-barrier 
islands that were requested by Louisiana. What was the delay in 
getting these approved? Was determining who would pay for the 
barrier islands berms a major stumbling block? Also, do we have 
the necessary manpower on the beaches and in the waters helping 
to clean up the ecosystem? News stories over the past few days 
indicate that the manpower down there is still inadequate. And 
I for one would be open to sending, if we need to, the National 
Guard resources down there to assist. Is this something that 
would help? Perhaps this is something the Congress can help 
with.
    I would like to also hear what the rules are for cleaning 
crews. I have heard reports the locals are upset because 
cleaning crews are only allowed to work 20 minutes out of every 
hour. Is this accurate? And if so, why are these rules in 
place?
    Finally, I want to find out more on the new effort to 
collect and review oil spill response solutions from scientists 
and vendors. What can we hope to see come from the interagency 
alternative technology assessment program, and what hurdles may 
complicate and hamper effective response technologies?
    These are all important issues that need to be addressed, 
and I hope we can get to at least some of these today and, if 
not, more of them in the coming weeks. And, again, Mr. 
Chairman, I thank you very much for holding this hearing.
    Senator Pryor. Thank you. Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Mr. Chairman. Thank you first 
for inviting me in my capacity as Chairman of the full 
Committee to come by this morning, and I hope I can return your 
graciousness by speaking briefly and then leaving it to you and 
the Subcommittee to go forward. And I look forward to hearing 
the results of this hearing.
    But I think it is a very important hearing because it is 
obvious to all of us that it has taken painfully long for the 
oil spill in the Gulf, Deepwater Horizon, to be stopped. But 
long after it is stopped, the people, the communities, the 
State and local governments of Louisiana, Alabama, Mississippi, 
and Florida will still be dealing with its consequences. And I 
think it is very important that you have focused your 
attention, as a Subcommittee, on this part of the problem.
    While I am saying that, I want to thank Senator Landrieu 
for the work, really pioneering, very effective work, that she 
has done in disaster response in the Subcommittee that she 
heads, and then her tireless and persistent advocacy in this 
case for the people of her State and the Gulf overall. And I 
welcome the elected officials from Louisiana as well.
    I was thinking, Mr. Nungesser, that we learn things when we 
come from our various States to the Senate. When I arrived here 
22 years ago, I thought that the top person in a parish was 
called a priest.
    [Laughter.]
    Then I found out that in Louisiana the top person is called 
the president, but if I may extend this a little bit to you 
directly, you have played a role here in this crisis that 
really has been very constructive, and in some ways like some 
of the parish priests I have been honored to deal with back 
home in Connecticut, you have been a principled, passionate, 
and effective advocate for the people of your parish, and it is 
an honor to have you and the others here.
    Mr. Nungesser. Thank you.
    Senator Lieberman. I will say just a few things.
    First is that this is not the first time we have faced such 
an environmental catastrophe involving oil in our country, 
though this is now the worst catastrophe of its kind that we 
have ever faced. Obviously, the Exxon Valdez in 1989, was at 
the time the worst oil spill of its kind, and we debated then 
some of the very same issues that we are debating today.
    The fact is that we adopted some legislation in response, 
and it has had a positive effect, particularly with regard to 
preventing oil spills in vessels on the surface of the water 
and in responding to accidents when an oil spill actually does 
occur.
    But, unfortunately, we did not take all the steps that we 
might have then. It seems to me as we look back that we failed 
to build a system that could plan for and respond to other 
risks in this particular area of activity, including the one 
that we are facing here, which is an uncontrolled blowout in a 
deepwater well.
    I think, as Senator Landrieu and I agree, and others agree, 
we have to, when we start talking about this, acknowledge that 
there have been thousands of wells dug, and the safety record 
overall is an impressive one. And we depend on the oil that 
comes from those wells to move our country and power our 
country. But the obvious fact here is that the Minerals 
Management Service did not require adequate safety and response 
measures from the oil companies at deepwater level, and this is 
what we are facing now and what we have to fix as quickly as we 
can.
    There are a lot of lessons to be learned, but I think one 
that is clear to me and I think is why it is so important that 
the Chairman is conducting this hearing today is that the State 
and local governments need to be actively involved in the 
response planning for disaster generally and specifically for 
oil spills. And as I said at the beginning, long after this 
terrible breach is closed and the oil stops flowing out of 
those pipes and that well, the people of the Gulf are going to 
be living with the consequences of it. And I think what you can 
help us today in doing is to tell us exactly what we can do, 
which is what we want to do, which is to stand by you as we 
help you back to normalcy.
    So, Mr. Chairman, I thank you very much for giving me the 
opportunity to say that, and I look forward to hearing from you 
about the results of this hearing.
    Senator Pryor. Thank you, and thank you for being with us 
today, Mr. Chairman. It is great to have you.
    Our next order, just so you all will know, is Senators 
Landrieu, Brown, Burris, and Nelson. And what I would like to 
do, if possible, is limit this to 3 minutes, but I understand 
some people may need a minute or two extra, so I will not be 
too quick with the gavel.
    Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. I am going to 
try to do mine in 2 minutes, if I could.
    First of all, I think the scope outlined by you and the 
Ranking Member are right on point about what our Subcommittee 
should be focused on in this hearing and moving forward.
    I also want to acknowledge the leadership of Senator 
Lieberman. This Subcommittee did not even exist in the 
aftermath of Hurricane Katrina, but when Homeland Security was 
reorganized, both the Chairman and I appealed to the Chairman 
of the full Committee that a Subcommittee that would give voice 
to local governments was so important in handling these 
disasters. And, Senator Pryor, you stepped up to lead this 
Subcommittee at Senator Lieberman's request, and I am very 
grateful because I think we will find, Senator Lieberman, the 
work of this Subcommittee, just like our Subcommittee did for 
FEMA, will be extremely helpful to the outcome of this issue.
    Second, I hope that these parish presidents and this 
director, Mark Cooper, whom I know very well--these men were on 
the front line of Hurricanes Katrina and Rita, watching their 
parishes flood and their people suffer. They are now on the 
front line again. They have been heroic in their efforts to try 
to give a voice and explain the many dimensions of this issue. 
I hope today they will be given an opportunity to talk, Senator 
Lieberman, about the balance necessary between what you said: 
The need for oil and the jobs that they represent from their 
parishes, but also the need to have a clean and pristine 
environment so our fishermen can operate. And I hope they will 
speak to that. I hope they will talk a little bit about the 6-
month proposed moratorium, what that might do in terms of 
devastating the jobs that are left, 52 days after this 
incident, and I look forward to their testimony and will leave 
it at that for right now until we get to the questions.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you. Senator Brown.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Mr. Chairman. I am here because I 
care and I want to hear what everyone is going to be testifying 
to. I am going to be bouncing back and forth because I have 
other hearings today, but I want to thank you for your 
leadership, and I will defer because I think everyone is 
anxious to get cracking.
    Thank you.
    Senator Pryor. Thank you very much. Senator Burris.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman. I am also grateful 
to you and the Ranking Member. I am not a Member of this 
Subcommittee. I just want everyone to know that not only are 
the coastal States going to be suffering, but also the State of 
Illinois, and we are certainly sending what little help we can 
down to the coastal States. I know that national guardsmen are 
coming in with helicopters, and assistance that we are giving. 
But there is another effect on this which deals with our urban 
areas, and that is the food that comes out of the Gulf. It is 
going to impact us tremendously in our restaurant business and 
those various businesses.
    So I am deeply concerned about what is going to happen down 
there in the future, and certainly I want to give deference to 
the distinguished governmental leaders who are here and on the 
front line of this problem. We must make sure that we treat 
this as a national crisis. The Gulf States are getting the 
brunt of it, but all of us are going to suffer from it.
    And so based on that, Mr. Chairman, I feel it is important 
for me to be here for the few moments that my schedule will 
allow in order to bring a message not only from the Gulf States 
but from mid-America that we will be impacted, and we want to 
support our colleagues on the front line the best we can with 
everything we have to overcome this problem. Thank you.
    Senator Pryor. Thank you very much. Senator Nelson.

TESTIMONY OF HON. BILL NELSON, A U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Nelson. As usual, Mr. Chairman, you are insightful 
to burrow in on something that needs disclosure. I bring to the 
Subcommittee today, the effect on State and local government. 
Oil is now entering Florida waters. The orange mousse has come 
into Perdido Bay. The Perdido River, Mr. Chairman, is the 
dividing line between Alabama and Florida, and it flows into 
Perdido Bay, and then that flows out into the Gulf of Mexico in 
Perdido Pass.
    Florida was not notified. The Emergency Operations Center 
in Escambia County in Pensacola was not notified. This all 
occurred yesterday. The Coast Guard is doing a great job, but 
they are stretched to the limit. Those guys are working 24 
hours. They barely have time enough to sleep. And it all the 
more calls for the command-and-control structure so that 
mistakes like this do not keep happening.
    Our local and State officials, as well as their Senator, 
are not only bewildered but we are livid that the command and 
control is not there so that communication is not coming to the 
State and local government. It reminds me of some of the things 
I heard Mr. Nungesser saying in his experiences over the past 
several weeks as he was talking about the oil and that orange 
mousse coming in on the wetlands in Louisiana. And they were 
not blessed because the winds took the oil, the fresh oil, to 
Louisiana wetlands. The winds blessed us at least for a while 
because it kept it to the west, but now it is moving to the 
east and to the northeast. And when the winds shift again, Mr. 
Chairman, and take it to the south, and it gets into the loop 
current, it is going to take it around the Florida Keys and up 
the east coast of Florida in the Gulf Stream.
    So I thank you. You again are clairvoyant in what needs to 
be examined, and just know that you have some folks in Florida 
that are mad as wheat hens right now. We have to get this 
command and control straightened out where communication is 
going to everybody at the local level.
    Senator Pryor. Thank you, Senator Nelson, and thanks for 
your comments, and I want to thank all the Members for being 
here.
    What we have now is three panels, and our first panel is 
the local government witnesses, the second panel is the Federal 
Government witnesses, and the third panel is British Petroleum. 
So what I would like to do is just very quickly introduce each 
one of you, and I will allow you to make your opening 
statements. I would love for you to keep your opening 
statements to 3 minutes, if possible, and we are going to have 
lots of questions. So we really appreciate you all being here.
    First let me introduce Mayor David Camardelle. He is the 
mayor of the town of Grand Isle, Louisiana. He has been the 
mayor there since 1997, as I understand it.
    Mr. Camardelle. Since 1995.
    Senator Pryor. Since 1995. And he will discuss the impact 
the oil spill has had on his community and the inability of the 
community to engage in clean-up efforts due to the approval 
process required to begin any activity, which is important, and 
we heard that. We want to know more about that.
    Next will be Billy Nungesser. He is the President of 
Plaquemines Parish, Louisiana. He has served the people of 
Plaquemines Parish for over 20 years, and if I am not mistaken, 
we met when I was down there after Hurricane Katrina.
    Mr. Nungesser. I have actually only been in office 3\1/2\ 
years.
    Senator Pryor. Oh, 3\1/2\ years.
    Mr. Nungesser. I was still there. I rode out Hurricane 
Katrina in Plaquemines, but I was not elected. I was a 
volunteer.
    Senator Pryor. I think that we met some of the folks from 
Plaquemines Parish when we were down there and saw the impact 
that Hurricane Katrina had on your community. And you will 
discuss the financial impact of the oil spill on your community 
and your local businesses, etc.
    And last, but certainly not least, we have Mark Cooper, who 
is the Director of the Louisiana Governor's Office of Homeland 
Security and Emergency Preparedness.
    So thank you all for being here. Mayor Camardelle, if you 
could go first.

   TESTIMONY OF HON. DAVID CAMARDELLE,\1\ MAYOR, GRAND ISLE, 
                           LOUISIANA

    Mr. Camardelle. Good morning, Senator. My name is David 
Camardelle. I am the mayor of Grand Isle. I am in my seventh 
term--three terms as councilman, four terms as mayor. Grand 
Isle is about 60 miles southeast of New Orleans. It is the only 
inhabited barrier island in Louisiana, and it is home to about 
1,200 residents. In the summertime, we get about 250,000 
vacationers, which is combined of sports fishermen, bird 
watchers, and visitors coming to enjoy our seafood.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Camardelle appears in the 
Appendix on page 60.
---------------------------------------------------------------------------
    Most of the residents of Grand Isle and the coastal region 
are either small independent fishermen or they are employed in 
an oil and gas-related industry. In many cases they do both, 
working a 7-day shift for an oil company and then being off for 
7 days when they fish. We understand what it takes to get a job 
done because our livelihood depends on it. If the boats break 
down or the nets, we know how to fix them. We know how to go 
back, and we know how to work in the town of Grand Isle.
    The marinas, the grocery stores, the hotels, the souvenir 
shops, the charter boats, and the large shrimp producers, in 
Grand Isle, the largest shrimp producer in the United States, 
the shrimp, it buys 7 million pounds of brown shrimp, should 
have bought 4 million pounds in the last week, it is down, 
completely down.
    I am looking at a picture, and it brings tears to my eyes 
because Mr. Nungesser can tell you we have been watching this 
all coming through our five passes, which affects five 
parishes. We have been working hard to come in and block the 
passes. We have come in with ideas. Mr. Nungesser and Greg, the 
two parish presidents, we came up with the idea of sand berms. 
In the meantime, born and raised on that island, trying to 
protect our people, trying to stop oil from coming on Bourbon 
Street if we have just a low pressure that comes into the Gulf 
of Mexico. We came up with an idea to come in with the deeper 
passes. I told the President of the United States, if he gives 
us $1 million a day, we can come in and block these five passes 
with barges. We only have 45 days before a major hurricane gets 
into the Gulf of Mexico.
    I keep on looking at that oil because I watch it every day, 
every morning coming through these passes. Our Cajun heritage 
has taught us to work hard, persistent, and we are very 
resilient. Born and raised and watching my mother and father 
lose everything in 1965, watching my father being elected on 
the side of me, telling the people everything is okay, it is 
material things. Anyone in Louisiana can protect anybody from 
hurricanes. I told the President that. You send me anywhere in 
the world. You give me 10 days. I can make a difference with 
hurricanes. But right now my hands are tied. I am dealing with 
an oil company. We have no say-so. We try our best. We have the 
best equipment that can come into our town, different salesmen, 
2,500 salesmen come in every day, I mean, through the weeks, 
and Mr. Nungesser can tell you, asking us. But I can tell you 
one thing. We are not going to give up. As of yesterday, we are 
bringing barges to my town. I am going to be back tomorrow 
morning at a meeting in Grand Isle to show the Coast Guard 
exactly where to put them and make sure that we protect our 
people.
    And I am going to tell you, every day I have a mom that 
comes in front of me and asks me, ``Mr. David, how am I going 
to get food to my kids?'' I have 37 applications right now that 
are standing by at the community center as we speak this 
morning that are still waiting on a $5,000 check. You have a 
deckhand on a boat that gets $2,500 maybe, and the owner of the 
boat that has a boat note of $5,200 is still waiting for a 
$5,000 check.
    You have a marina that is waiting on a check, the 
electricity bill, right now the water bill and the gas bill is 
$5,800 at my city hall, and I am not going to cut the gas off.
    That is the things that we are going through. The shrimp 
dock is a ghost town. The booms do not work. In a major pass, 
the booms do not work.
    Mr. Senator from Florida, this is a wake-up call. What you 
said earlier, what we went through 7 weeks ago, you are just 
opening your eyes this morning. And I am being honest with you 
all. We need some help. We need you all to push. We need some 
money down there.
    And the last thing, our people do not want is a free check 
from the government. Our people do not want food stamps. They 
do not want a SBA loan. They want to go out on the waters. We 
still have fishermen right now that are waiting, and they want 
to put booms to scoop up that type of oil. Right now as we 
speak, it is coming through our passes, and when I get back 
tomorrow morning, I will have one of them passes blocked up, 
and I have four left. And I guarantee you, if I could push--and 
I am going to make it happen. I am going to block the five 
passes, get out of there in 45 days, and I will stop with a low 
pressure, I will stop and protect five parishes. And we are not 
waiting.
    Two Saturdays ago, I commandeered the fishermen at the 
dock, told everybody to get out of the way, and we put 
fishermen to work. We just do not want to be on food stamps. We 
are not used to that. We want to go to work and save our 
community.
    And the Senator from Illinois, my deckhands, when I had a 
shrimp boat--and I still have a shrimp boat. Two of them come 
from Chicago, Illinois, made a good living, fed their families. 
I think one of them is still there working with our family. And 
you are right, the seafood--what I see here is destroying the 
best seafood in the world. And I gave my credit card before. I 
fed some families. I make $513 a week as mayor. I got my own 
family to raise. And I just talked to my secretary, and I can 
promise you I will not let no one starve on my island. Maybe 
that is why I have been reelected seven terms. Senator Landrieu 
can vouch for that. She has always been there for us. And my 
good friend to the left, Billy, he feels the same way. We 
continue to fight. I am going to meet with the President today 
at the White House at 3:30 p.m. It looks like every time the 
President came, BP got closer to me. They push the button, and 
then it fades away.
    So I am hearing there are maybe navy ships somewhere to 
come and scoop up this oil. Please, please send us some help. 
We are true Americans. If my grandfather would be alive and my 
father would be alive, I could remember them having an American 
flag, and I asked my grandmother why was the American flag 
behind the sofa on the wall. She said, ``Your grandfather this 
year was the best fishermen.''
    Tomorrow, I will stop at my grandfather's tomb and my 
father's tomb and tell them that I want to continue holding the 
American flag, that I stood up for my people, and I am going to 
continue to feed my people.
    On behalf of the elected officials of Grand Isle and the 
residents of Grand Isle, we are strong. Let me remind you it is 
45 days before a major hurricane gets close. I just need your 
help. It is like a war and I am on the front line.
    I want to thank you all so much. Thank you, Mr. Chairman.
    Senator Pryor. Thank you. Thank you for being here today, 
and thank you for that very touching testimony.
    Mr. Nungesser.

TESTIMONY OF BILLY NUNGESSER,\1\ PRESIDENT, PLAQUEMINES PARISH, 
                           LOUISIANA

    Mr. Nungesser. Thank you. We appreciate the opportunity to 
be here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nungesser with attachments 
appears in the Appendix on page 63.
---------------------------------------------------------------------------
    I wrote a nice speech, and I threw it in the garbage this 
morning. I represent 25,000 people, 100 miles long, and I am 
going to talk quick because I have a lot to say--more coastline 
than any other parish. To date, over 3,000 acres of my parish 
is destroyed, not 30 miles like the Coast Guard has said. Three 
thousand acres are destroyed, and everyone in it.
    I started out to go into a lot of detail on some things, 
and last night on the plane, a gentleman walked to the back of 
the plane and handed me this piece of paper. And he said, ``I 
work with the Coast Guard. I am a Coast Guard official.'' He 
said, ``I am back home in Washington, and I wrote this down for 
you to say and tell somebody until they listen, because it is 
not getting done.''
    He said, ``I have been down in the command center in Houma 
for over 35 days,'' and I am going to read it to you. ``The 
problems at the Incident Command Center in Houma that result in 
the slowing down for this response. Agency requests from the 
Federal funding must go through two levels of approval. First a 
request must go to the ICO command approval, which typically 
takes less than a couple hours. The final level of approval 
comes from the UAC Roberts to Admiral. Sometimes it gets 
approved the next day or the day after, but most requests take 
over 5 days. This timing is unacceptable for an effective 
response.
    ``When the DM932 spill spoiled 80 miles of the Mississippi 
River in 2008, the CO of the command post had full authority to 
obligate and engage the OSLTF funds. Why is this not happening 
now?
    ``The current Federal project ceiling is $150 million, 
causing the emergency partner of the OSLTF to almost be 
completely depleted. There is more than $1 billion in the OSLTF 
fund, principal fund. Why hasn't Congress allowed the Coast 
Guard to borrow from this fund, as it did for the OPA 90 when 
that barge broke in Louisiana? The lack of action by Congress 
has forced the U.S. Coast Guard to ration the little money they 
have left, therefore slowing down the response.''
    Now, I do not know if that is true, but if it is, shame on 
us. I am not here to place blame on anybody as I have done in 
the past. I am here to move forward, and it has got to change, 
or we are going to lose coastal Louisiana.
    I still do not know who is in charge. Is it BP? Is it the 
Coast Guard? When I get mad enough in a meeting, the Coast 
Guard in our office stands up and says, ``I can make that 
happen.'' When I throw a BP official out of my office, he comes 
back the next day and approves something. I have spent more 
time fighting the officials of BP and the Coast Guard than 
fighting the oil.
    We have come up, the parish presidents, with every logical 
answer. The boom is not working. Please do not rely on the boom 
in Florida unless they get ocean boom, which we said from day 
one was the only thing that was going to keep it out. It is a 
joke. It washes up on the shore with the oil, and then we have 
oil in the marsh and we have an oily boom. So we have two 
problems.
    We have to find somebody to put in charge that has the guts 
and the will to make decisions. We are going to make some bad 
ones, but we are going to fix them and go forward.
    Right now, it took the President of the United States to 
come down to approve a Jack Up Boat to put in the mouth of the 
river. It is a 2-hour boat ride back to Venice. When you work 
20 minutes and you rest 10, not much work is getting done.
    Sometimes it feels like the contractor has more influence 
that BP has hired than BP and the Coast Guard. I have sat in 
the command center in Venice when--I call him the guy with the 
red hat, stands up and says, ``We are not going to do that.'' 
Well, obviously not because his guy's on the payroll. Any 
equipment that would come into the parish through the parish or 
the State or the Federal Government, he is not getting a 
percentage of.
    Right now, they are building a camp in Plaquemines Parish 
for 1,500 people. I tell you, there is nothing in Plaquemines 
Parish for 1,500 people to do. We appreciate it. The people 
they sent out to clean up one of the islands trampled the 
nesting grounds of the pelicans. They were out there throwing 
eggs around like it was a joke until our fishermen stopped 
them.
    We have people in charge that do not know what they are 
doing. We have laid out a plan for the Jack Up Boat so we could 
be closer to the front line out there to catch the oil. And we 
did in Pass A Loutre 3 weeks ago on a Monday morning at 6:15 
a.m. That oil still sits in the marsh, and every day more and 
more pelicans dive into that stuff, not knowing what it is, and 
get coated with it and die. And I have a packet up there for 
each of you. Thousands and thousands more birds will die, 
hundreds and hundreds of turtles and sea life every day we 
leave that gook out in the marsh.
    We came up the next day with a vacuum plan and have been 
begging to get it approved. Kevin Costner's machine, I do not 
care whose machine we use, we have to suck it up.
    There are overseas ships--and I am sure there are some in 
this country--that we have had people come from all over the 
world to see me because BP will not see them, with a pipe that 
will go down 500 feet and get those large areas of oil beneath 
the surface 10 to 50 feet. Why aren't those ships deployed? We 
could get most of it out there.
    The President had to approve the Jack Up Boat plan. He had 
to come down. We begged for the berm plan. Although we do not 
want to see it on the Florida beaches, it is easier to clean it 
off of a beach than out of the marshes. We told them from day 
one, ``You will not clean it up out of the marsh.'' They said 
it will never get there. Well, it is there.
    And I ask you, please do not take flyovers of Plaquemines 
Parish. It is an insult to the local people. You cannot see it 
from the air. You got to go down there and touch it. You got to 
pull into that marsh and see there is absolutely no life. 
Everything is dead. And we will lose--I will make you a 
prediction. We will lose more coastline from this disaster in 
Louisiana than we lost with Hurricanes Katrina, Rita, Gustav, 
and Ike combined. We have already lost 20 miles of Pass A 
Loutre. It is dead, and as soon as the grass and the cane falls 
into the water, the land will wash away.
    How can we sit here 3 weeks later and say we are doing 
everything possible? It is beside me. And I do not know who to 
blame anymore. It took the President coming down to get the 
berm project approved. I do not know if it is going to take him 
coming down to get the suction equipment. We put a vacuum truck 
that vacuums out Porta Potties on a barge and took it out there 
and showed that it sucks up the oil. And there is other 
equipment out there. You have the parish presidents running the 
whole show. BP could fire all their contractors because they 
are doing absolutely nothing but destroying our marsh. You 
could put every fisherman to work. This is an emergency. To 
work 20 minutes and take 10 minutes off, would we do that in 
war? Because we are at war here. Would we say, ``Lay down your 
guns because the sun is over 90 degrees. They are not going to 
come at us for another 20 minutes. Let us take a break''? That 
is absurd. We are letting the rules, the regulations, the 
contractors, and BP stand in the way of us saving our 
coastline.
    Yesterday, the governor went out and showed that the vacuum 
equipment is working. Hopefully by the time I get back this 
afternoon, we will have an approval for that process. But if 
what this gentleman told me on this piece of paper is true, 
then shame on the Coast Guard. They are rationing their money 
and saying, well, we might not do that because we need this. 
And I do not want to point fingers, but there is a lot of money 
being spent--a lot of money--more than that berm will cost. 
That is not going to benefit Florida, Louisiana, Mississippi, 
or Alabama one bit and keep the oil out. It is being spent on 
hotel rooms, Jack Up Boats, flyovers, all the things that look 
pretty but do not do anything absolutely--does nothing to help 
us clean up our marsh.
    I do not know if you saw the TV reports of the crews wiping 
the blades of grass. That was an absolute insult. Does anybody 
really believe we are going to wipe every blade of grass to 
clean it off?
    There are over 100 natural products that could be sprayed 
to energize the marsh, eat the oil. BP is not looking at any of 
them. We have tested several and made recommendations.
    You think as big a company as they are they could multi-
task. For the first 2 weeks, I heard, well, we have to stop the 
leak, then we will worry about the fishermen. Well, I hope the 
guy that writes the check to the fishermen is not the guy 
trying to--maybe it is. Maybe that is why they cannot stop the 
leak. But that is absolutely ridiculous, and that is what we 
keep hearing, that is the most important thing.
    Everything should get attention. Everything should be 
worked on at the same time. God knows we have enough people on 
the payroll to do that. What did they say, 24,000 people?
    I know I am out of time, and I am just going to leave you 
with this: Thomas Paine said a century ago: ``Lead, follow, or 
get out of the way.'' So tell them to get out of our way if 
they are not going to help us because right now they are the 
main problem.
    Thank you.
    Senator Pryor. Thank you. Thank you for your passionate 
testimony. Mr. Cooper.

TESTIMONY OF MARK A. COOPER,\1\ DIRECTOR, LOUISIANA GOVERNOR'S 
     OFFICE OF HOMELAND SECURITY AND EMERGENCY PREPAREDNESS

    Mr. Cooper. Good morning, Mr. Chairman. Governor Jindal 
early on stood up the State's unified command group, was 
forward-leaning, and directed the oil spill coordinator and 
other key State agencies to be involved in the response and 
clean-up efforts. The governor met with parish leaders and 
other leadership of the affected parishes to assist them in 
developing responses to oil impacting their parishes and to 
address the economic issues facing the parishes and their 
citizens. He has designated the Secretaries of the Office of 
Coastal Protection and Restoration, the Department of Wildlife 
and Fisheries, the Department of Natural Resources, and the 
Department of Environmental Quality as trustees under the Oil 
Pollution Act of 1990 (OPA 90), to represent the State in the 
response and clean-up. State agencies and local governments 
have used their expertise, as just stated, to develop 
innovative modular processes to protect their coastlines which 
are nimble and quick to deploy.
---------------------------------------------------------------------------
    \1\ The prepared statement with attachments of Mr. Cooper appears 
in the Appendix on page 67.
---------------------------------------------------------------------------
    However, unlike other disaster responses, under the 
provisions of OPA 90, the State does not have the authority to 
independently conduct any response activities, and this has led 
to a great deal of frustration, as just stated, with BP as we 
have attempted to interface with their processes for response.
    As of June 7, over 13 coastal parishes are affected, and 
while we are trying to get the exact number because it changes, 
over 100 linear miles of Louisiana's coast and coastal marshes 
are confirmed to have been impacted by the Deepwater Horizon 
oil spill. This is measured, as I indicated, in linear miles 
only and does not reflect the depth of the intrusion into our 
coastal marshes. The impact of oil on a beach is vastly 
different than the effects of oil in the marshes, especially in 
terms of environmental impact.
    Large areas of State and Federal fishing grounds are closed 
to commercial and recreational fishermen. Less than 20 percent 
of our shrimpers are able to actually harvest, and large 
regions of oyster harvest areas are closed. In addition to the 
fisheries, in the indirect business in support of that 
industry, other areas of the Louisiana economy have been and 
will continue to be affected, to include tourism and 
recreation, transportation and logistics, chemical 
manufacturing, oil and gas exploration, and State brand issues, 
which is a major concern.
    Much of the coastline already affected or currently 
threatened is part of a very fragile coastal marsh and wildlife 
habitat system. Damage to these commercial and environmental 
systems may require generations of effort to repair and to 
recover and could greatly disadvantage Louisiana's economy for 
years to come and could jeopardized Louisiana's reputation as a 
sportsman's paradise.
    Most importantly, it has the potential to severely damage, 
if not destroy, a culture. The South Louisiana culture is 
strong and rooted in the fishing and other water-related 
industries, and entire communities have been established around 
these activities for generations. Damage to these commercial 
activities could displace people, never to return, and their 
cultural contribution could be lost.
    A moratorium on deepwater drilling will exacerbate the 
impact on Louisiana in that we estimate that upwards of 10,000 
jobs could be lost if deepwater drilling is curtailed.
    OPA 90 identifies BP as the party responsible for response 
and clean-up, and this law has been originally executed through 
the dated Area Contingency Plan. State and local governments 
develop plans to influence those actions of BP and Coast Guard, 
as just stated, to implement a more current analysis of those 
critical areas that need protection and implement from a 
bottom-up approach, but have experienced frustration having 
those plans implemented.
    These response plans require timely implementation, for 
example, as just stated, the dredging of the barrier islands. 
However, implementation has been frustrated by an unresponsive 
regulatory process. It cannot be overemphasized that the 
coastal wetlands and the marshes of Louisiana are not only an 
environmental concern, but a significant economic driver for 
the State of Louisiana and the Nation.
    Governor Jindal has made several requests to the Federal 
Government for assistance, and while the responses from the 
Federal agencies have expressed support, the overriding message 
has been that the Oil Pollution Act simply does not authorize 
the Federal Government to respond to a large-scale catastrophic 
oil spill with disaster programs and assistance similar to what 
comes with the Stafford Act. We are primarily concerned with 
the assistance to individuals that can be provided by Federal 
agencies that are in the Stafford Act emergency.
    With the official beginning of hurricane season this month, 
it has become increasingly clear that, should a storm threaten 
to collide with the huge oil spill, there will be unexpected 
and exacerbated consequences to the waterways and coastal 
marshes and coastline and inland areas of our State. We are 
requesting that FEMA be proactive in identifying potential 
response issues like pre-approval of 100 percent costs for 
debris removal for those areas that may be impacted by 
contaminated oil.
    Finally, few jurisdictions in our Nation have experienced 
the levels of disaster brought upon our State in the last 5 
years. Louisiana continues to recover from Hurricanes Katrina 
and Rita, the largest in U.S. history, and Hurricanes Gustav 
and Ike, while responding to this current threat of this oil 
spill, which is the largest environmental impact that we have 
ever seen.
    Governor Jindal knows our parishes will not entirely 
entrust the care of Louisiana, its coastlines, coastal marshes, 
and citizens to a third party. The State and local governments 
will continue to be forward-leaning and aggressive to protect 
the interest of our State and its citizens.
    The bottom line is this: Because of the resiliency, the 
fortitude, and the battle experiences of our people, including 
these gentlemen sitting to my right, Louisiana will recover 
from yet another catastrophic disaster. This is vital not only 
for our State and the entire Gulf but for our Nation. The 
challenge is assuring that our parishes, Louisiana, and the 
other Gulf Coast States are full partners in identifying what 
works best, that plans that have been identified are flexible, 
scalable, and responsive based on the needs, and that BP is 
receptive and forward-leaning in doing everything that is 
possible to protect and restore our coast and the livelihoods 
of our people. Thank you.
    Senator Pryor. Thank you. Mr. Cooper, what I might do is I 
might open my questions with you, and we are going to probably 
do two rounds here because my sense is Senators are going to 
want to ask a lot of questions, and so why don't we do two 5-
minute rounds and try to move through the questions as quickly 
as possible. But we all have a lot of questions.
    Mr. Cooper, let me start with you, and you mentioned the 
Stafford Act. Is Louisiana in the process of requesting 
assistance under the Stafford Act?
    Mr. Cooper. No, we are not.
    Senator Pryor. Can you tell me why or how that works?
    Mr. Cooper. Well, as you know, OPA 90 is what drives this, 
and at this point we are sticking with that OPA 90. That is not 
to say somewhere down the road we might change our minds on 
that. But the reason I brought that up is that--first of all, I 
do want to say up front that we have a great partnership with 
the DHS, the Federal Emergency Management Agency (FEMA), and 
the Coast Guard in planning for hurricanes. We all saw what 
happened during Hurricane Katrina. During Hurricanes Gustav and 
Ike, at the local, State, and Federal level the response was 
much better. And we are used to--and I think that is part of 
the issue, is that we are used to responding to a Stafford-type 
disaster where the response is from the bottom up, all 
emergencies are local, as opposed to the top down. And that has 
been the frustration in that.
    Also, when you put plans together--and I am an emergency 
manager. We put plans together, and we know that everything is 
not always going to go to plan, and we have to be flexible 
enough to change those plans at a minute's notice, and that is 
not what we are seeing with this disaster. And I think that is 
what you have heard conveyed this morning, and that is why I 
brought that up about the Stafford Act.
    There are certain programs that are in there that we would 
like to see. For example, disaster unemployment insurance, that 
is one that we were not able to activate in this disaster, as 
well as crisis counseling, and believe me, there is going to 
need to be a lot of that, as well as other assistance. But, 
again, what our concern is is that if the system could be more 
flexible, then I think we would see a better result.
    I think what you have seen since September 11, 2001, since 
Hurricane Katrina, we have seen emergency management evolve. 
This Act goes back to 1990. There has never been a catastrophic 
oil spill like this. And I think the evolution that occurred in 
emergency management obviously has not occurred as it relates 
to catastrophic oil spills.
    Senator Pryor. Let me ask about that, because one of the, I 
guess, challenges here is you have a private company, BP, who 
really ultimately has responsibility for most of this; but then 
you also have the Federal Government who is very involved in 
the response. And so just tell the Subcommittee, if you can, 
about how your State has been able to coordinate with the 
Federal Government, and with BP, and some of the challenges 
there and some of the gaps there that are not working very 
well.
    Mr. Cooper. Well, that has been one of the challenges, as 
you have indicated earlier, that, again, with the Stafford Act 
we are used to a chain of command and unified command, starting 
at the local level. When it goes beyond their capabilities, 
they ask the State for assistance, and in partnership the State 
provides services. And then when it goes beyond the State, we 
ask for FEMA's assistance. That is not what is occurring, and I 
think what the challenge has been for us--and this was conveyed 
earlier--is that there is no real unified command. You have a 
command in Robert, Louisiana. You have incident command in 
Houma. You have BP folks in Houston, Texas. You have these 
staging areas where there is command. So that has been part of 
the issue, just identifying what that command is. And as was 
indicated, sometimes decisions take a long time to be answered. 
It took more than 3 weeks, for example, for that dredging plan 
to be approved.
    Senator Pryor. When you were getting approval for that, is 
that from the Federal Government, or from BP, or what?
    Mr. Cooper. That was from the Federal Government, and they 
are holding BP accountable in paying for that. And so that is 
moving forward, and we are extremely happy about that and 
appreciate the President for approving that.
    Senator Pryor. And as I understand it, in Louisiana you 
have something we do not have in Arkansas. You have an oil 
spill coordinator's office. Is that right?
    Mr. Cooper. Yes, sir.
    Senator Pryor. And as I understand it, that used to be a 
cabinet-level position, but it is no longer a cabinet-level 
position?
    Mr. Cooper. What the governor did is move that under the 
State Police, which is a cabinet-level position, and the reason 
for doing that was because of the number of resources the State 
Police had versus the small office. We have a number of 
hazardous material specialists in the State Police and to 
support the oil spill coordinator.
    Senator Pryor. So in your State government, are you the one 
who is responsible for coordinating, or is it the State Police 
through the oil spill coordinator? Or tell us how that chain of 
command works.
    Mr. Cooper. Well, it is the oil spill coordinator, but 
also, as required by OPA 90, the State is required to establish 
trustees, and I named those earlier. And those trustees include 
the oil spill coordinator, Department of Environmental Quality, 
Department of Natural Resources, Wildlife and Fisheries. But 
for an oil spill, it is the oil spill coordinator.
    Senator Pryor. So the oil spill coordinator is the Federal 
Government's and BP's primary point of contact?
    Mr. Cooper. Yes, sir. That is correct.
    Senator Pryor. OK. I tell you what, I am going to go ahead 
and turn it over to Senator Ensign and let him ask some 
questions.
    Senator Ensign. Well, thank you.
    First of all, I want to thank all of you for your 
testimony, and as emotional as you got, I actually thought you 
were pretty restrained, and I did not hear any expletives. And 
I can understand, I am sure you have uttered a few of them out 
there, and it is quite understandable.
    Can somebody walk me through--who has to approve the berms? 
I guess it was the Federal Government had to approve the berms, 
and it took the President. Who has to approve more of the boom? 
Who has to approve these suction units that you guys have shown 
on shore, maybe to put them on the barges to get them going? 
Walk me through some of these approval processes because it 
sounds like you are having trouble knowing who approves.
    Mr. Nungesser. Well, our Coast Guard man on the ground says 
he can approve it, but then he looks to BP, and it goes through 
the BP chain of command.
    I think when we scream loud enough and it gets up to 
Admiral Allen and it gets the President's ear, the Coast Guard 
pulls the trigger. And if funding is a problem, early on in a 
conference call with Admiral Allen's assistance and Mary Landry 
from the Coast Guard, they told me the reason they would not 
approve the berm, they did not think it would do enough good to 
keep the oil out, one; and two, because of the cost, and they 
had limited funds for this recovery. And that scared me, and it 
should not be limited funds. We should be making BP put the 
money up.
    And so, we should be throwing everything and the kitchen 
sink at this, and the same thing with the skimmers. There are 
100 skimmers in a warehouse, but they are not through BP's 
contractor, and we are playing hell trying to get those things 
out there to pick up this oil before it gets to Florida and 
other States. It is sitting out there, and nobody is picking it 
up.
    Senator Ensign. You are probably asking the same question I 
am right now. Why doesn't Thad Allen just make it happen and 
then worry about billing BP later? BP has said publicly many 
times that they are willing to pay for the clean-up, they are 
willing to pay and do everything and do it right. If we are 
going to hold them to their word, why isn't Admiral Allen doing 
that?
    Mr. Nungesser. These arm skimmers that can get on ships and 
go out there and pick this up, until they were embarrassed at a 
public meeting and the commander from the New Orleans Coast 
Guard took him aside--and I think they ordered one. Whether it 
was to shut this guy up or whatever. But there are all kinds of 
equipment that could pick all this oil up offshore before it 
gets to Florida, and that is the crime. We were out there, and 
we rode for 3 hours the other day through thick oil like that, 
all along the outer barrier islands. And it is coming ashore 
somewhere, and we are doing nothing.
    Senator Ensign. Well, it is similar to--you heard today 
that BP cannot pick up as much oil, their ship that they have 
out there cannot handle all the oil that is being sucked up. 
And I am thinking to myself this has been going on 52 days now. 
Why isn't there at least another ship or whatever they need in 
the area? It is going to cost them a lot more if the stuff 
comes ashore and gets into those marshes for the environmental 
clean-up. I do not know what the thinking is for BP, but they 
do not seem to be thinking.
    Mr. Nungesser. Well, the mayor made a start, when the new 
guy in charge, came down and we took his hand and stuck it in 
the oil and he felt it and asked him, ``What do you think that 
feels like on the back of a pelican?'' He seemed to get it, and 
that was just the other day. Maybe we will see some changes. 
But until you go out there and see what it is doing, it scares 
the hell out of you.
    Senator Ensign. Maybe when you have trouble getting 
something approved we should just put some BP executives in the 
oil until they approve it.
    Mr. Nungesser. I have made that recommendation to Hayward. 
I told them, when he said there was no large sections of oil 
under the water, Jacques Cousteau's son went for an hour and a 
half and could not find the end of a large section offshore. I 
suggested we take him out there and throw him overboard and see 
that black stuff dripping off of him. But it is serious 
enough--look at that picture. We were out for 3 hours the other 
day with the new guy in charge of BP, and I said, ``What do you 
not see out here?'' He said, ``Fishing boats.'' I said, ``What 
else?'' ``Skimmers.'' Not a one.
    Barataria Bay, one of the most richest, where all those 
pelicans are nesting, our crew is out there every morning. We 
cannot pick up boom, but we can put it out. So we are putting 
it out every day. They are not picking up the oily stuff. So we 
just keep adding to it. That oil in Barataria Bay is going to 
destroy all of the nesting ground for the pelicans, and there 
were no skimmers out there yesterday or the day before or the 
day before that.
    Senator Ensign. Mayor Camardelle.
    Mr. Camardelle. Yes, sir. The day before yesterday, around 
5 o'clock in the evening, before my council meeting, some of my 
shrimpers were off of Breton Sound, which is on the eastern 
side of the mouth of the river. Twenty-five of them--BP put 
some of the task force, about 25 fishermen in the task force. 
Out of the 25, I have eight of them from Grand Isle, and the 
rest is the neighboring parish, which is Lafourche Parish. They 
had no signal on their phones, so one of them climbed up the 
mast and called me, and he said, ``I want to come home. I have 
been gone for 5 weeks. I am watching television, and I am 
watching the five passes where I make a living at.'' He said, 
``The fishermen want to come home and work their territories. 
Mr. David, can you please bring us home? There is no oil here. 
Maybe between the 25 of us in the last 8 days we picked up 
maybe a quart of oil. But every night we are laying in the 
bunks of our boat. They make us anchor out at 6 o'clock in the 
evening, shut down.''
    Apparently BP does not believe that oil moves at night. A 
shrimper works 24 hours, 24/7. They left their families, and 
they are scared. They are scared to tell the BP representative 
that we need to go to Grand Isle, we need to go where the oil 
is at, we want to go save our community, and we will run back.
    Now, the task force five or six, maybe task force seven, 
behind the island is from Venice, Louisiana. So we are trying 
to work it out where the locals can maybe work in the areas, 
but the bottom line, looking at a picture like that with Mr. 
Nungesser and I, for 3 hours, the BP representative that rode 
in the boat with us, just picture you or your son or your 
grandson playing ping-pong and there are about 500 balls coming 
to you with one paddle. That is what it looks like coming them 
passes, 500 streams of that type of oil coming, and there is 
only one shrimp boat that is fighting it.
    Senator Ensign. Just one last comment. It just sounds like 
to me, based on everything that I am hearing, that the local 
folks, you know your area the best, you know the solutions the 
best, and obviously more of that command and control needs to 
happen bottom up, as you guys talked about. And perhaps even 
what we did, Senator Landrieu, during OIF/OEF, we had local 
CERP funds for the local commanders on the ground. Perhaps we 
need to set up something like that so that you guys do not have 
to go to that island, you do not have to go have the President 
come down to get some of these things, because it sounds like 
you have a lot of the solutions that could prevent a lot of 
this stuff from happening.
    Senator Pryor. Thank you. Senator Landrieu.
    Senator Landrieu. Well, I will follow up on that point 
because that is where I wanted to jump off. I mean, obviously, 
I do not think any of us need any more direct testimony about 
the contracting process being absolutely broken. We saw this. 
We have seen it before. We saw it after Hurricane Katrina. We 
are operating under a different law but some of the same 
problems we are seeing rear their ugly head again, which is the 
people that are on the ground either up to their chin in water, 
or up to their knees in oil in this case, do not seem to have 
the resources or authority to get the job done. And, Mr. 
Chairman and Ranking Member, I cannot tell you how important 
this particular Subcommittee is, which is why I argued to form 
it, to staff it, because I figured sometime we might need it 
again. Well, we need it now.
    This Subcommittee is focused on giving local government a 
seat at the table, and besides these elected officials, Tim 
Kerner is here from Lafitte, the mayor of Lafitte, a town of 
10,000 people, who represents probably some of the largest, 
most valuable wetlands in all of the country, and I want to 
acknowledge also that Chris Roberts is here from Jefferson 
Parish, who is a council member whose district also includes 
those wetlands. He has been on the front line, but hundreds of 
our local officials, Democrats and Republicans--and let me say 
up here Washington knows the difference. At home we do not 
care. I mean, we are all in the oil together. We do not care. 
Mr. Nungesser is a Republican, Mr. Camarelle is a Democrat. 
They could not be closer brothers in this fight. So one message 
to Washington is let us not make this in any way political. 
This is a national disaster. It needs to be handled in a much 
different way, and we have to do it. I mean, our economic and 
environmental future, Senators, depend on it.
    I want, though, to ask a question. We have covered the 
ground beautifully, but, Billy, you have had experience both in 
the environmental community--you are a respected voice. People 
have been listening to you now all over the Nation. You also 
know something about the oil and gas industry. Your company 
serviced the industry. Could you please just comment a minute 
about the importance--or lack thereof, if that is your view--of 
a balance here as we move to clean the oil, contain the oil, 
get it off of our marsh, but how we have to do that, 
recognizing that half the families fish, the other half of our 
families are in the oil business.
    Mr. Nungesser. Absolutely, Senator. The moratorium on the 
drilling affects a lot of Plaquemines people. The dad might 
fish. The son may work offshore. So it is just going to be a 
double whammy.
    The local oil community and business community in South 
Louisiana came up with a 66-man plan, and we presented it to 
the President. And what a 66-man plan is, it is 33 men on 7 
days, and a crew change just like they do offshore, and 33 go 
on the next 7 and they swap out. You get retired engineers, and 
you swear them in as Federal agents.
    I have been in the oil field. I have spent hundreds and 
hundreds of nights offshore. There were fistfights, almost, 
between the tool push and the company man. He has an agenda. He 
has got to work that rig. He has an agenda; he has to make a 
buck. And that is a dangerous situation, and we saw this 
catastrophe.
    It is not the first time there were disagreements about the 
mud, what is going on, is it safe, is it unsafe. I have seen 
the arguments personally myself offshore.
    You put a Federal agent out there that has the right to 
say, ``Stop,'' and you make it safe for tomorrow. We all know 3 
days before this rig tragedy, people asked to be removed from 
that rig because of unsafeness. And it is a shame it took this 
and the lives of those men to get to this. But you put a 
Federal agent out there tomorrow and a retired--there are a lot 
of good retired engineers that would love to step up to the 
plate and they answer to one person: To the Federal Government. 
And they have the right to shut that rig off or do anything in 
between that and running people off, and you make it safe for 
tomorrow.
    Also, the devices that they use overseas, the half a 
million dollar device that a lot of people say--and I am not an 
expert--would have prevented this tragedy on the wellhead, that 
are required in the North Sea. It is half a million dollars per 
rig. We do not require them. But by shutting these rigs down 
and when they leave, it will be far-reaching throughout our 
community that is already hard hit. So as we ask the President 
to look quickly at other solutions that could make it safer.
    Thank you, Senator.
    Senator Landrieu. Thank you. If the Chairman will allow me 
just one more question? I know I have gone over my time, but I 
have to ask Mayor Camardelle: You have been in the forefront of 
the fight for revenue sharing since we started it 20 years ago. 
It has been going on for a long time. The history that 
President Truman, when the offshore industry started, offered 
Louisiana 37.5 percent; we wanted 100 percent. We lost it in 
court. We have been trying desperately to tell people that with 
the $5 million produced by this industry offshore that the 
Federal Government gets--they get a lot more money, but the 
Federal Government gets $5 million, we get nothing. This well, 
this Deepwater Horizon well, 50 miles basically off of your 
shore, Louisiana would have not got one penny of the hundreds 
of thousands or billions of dollars of taxes that would be 
generated by it.
    Can you just give a comment to the record about would it be 
helpful to you to have some of that funding? What would you be 
doing with it if you had it?
    Mr. Camardelle. Oh, exactly. When President Obama came 
through and visited the island last Friday, I remember him 
looking out the back side from Grand Isle to Lafitte on the 
north side, he asked me what was that tower out there, and I 
told him that was inshore drilling. At the time there was a 
drilling rig between--going toward Lafitte--which the mayor is 
here today. But when you looked at the Gulf side, you see a 
bunch of Jack Up rigs 3 miles off of Grand Isle, and looking at 
the rigs and just tell them it is in our backyard.
    Just talking to the people in the Fourchon area, my 
colleague, Parish President Charlie Randolph, we are talking--
Port Fourchon is the largest port in the United States that 
imports the oil into the United States. Just talking with the 
President last week, last Friday, it would generate about--if 
we stopped the moratorium, I just told the President, ``You are 
looking at 37,000 jobs.'' Like Mr. Nungesser said, there is no 
way in the world we should stop drilling.
    When I looked at the President and I said, ``If we are all 
in class and you are the bad little boy, and the teacher is 
fussing at you, she should not punish all of us.'' And he 
looked at me, and he said, ``We have to stop BP, and, David, we 
are going to bring it back.''
    I already have companies calling. I have seen a Jack Up 
barge, one of the major oil companies out of Houston, a friend 
of mine that graduated, he is a CEO, called me and said, ``June 
the 1st you are going to see the first Jack Up barge dropping 
down.'' Well, guess what? On my beach at daylight, I showed my 
chief of police and my councilman that the Jack Up barge, as we 
speak on June 2, was being dropped down.
    So I do not know what is going on, too much about the oil 
as far as being an oil man, but I know one thing: That seeing 
my father and my fishermen, like Mr. Nungesser said, on 7 days, 
7 off, when the fishing was bad, we went and worked for the oil 
field. We need to continue drilling. We have Exxon Mobil right 
here in Grand Isle. We have storage tanks in Grand Isle. After 
Hurricane Katrina, President Bush called me, asked me how many 
gallons of oil we had in the tanks, asked how many gallons of 
oil that was available at Port Fourchon, which is 7 miles from 
Grand Isle. You can see the ships at the facility, the ships 
coming in right at Port Fourchon.
    So it is very important that we are like brothers and 
sisters and we clean up our mess, we do it right, and we 
continue drilling.
    Senator Pryor. Thank you. Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    Gentlemen, I am trying to get the gist of the control and 
command here and who is in charge. What is the recommendation--
let me ask, do you have a recommendation, Mayor?
    Mr. Nungesser. Yes, sir.
    Senator Burris. Mr. President, I am sorry.
    Mr. Nungesser. I am sorry.
    Senator Burris. Who would you recommend for the job. I 
recall in Hurricane Katrina, I saw on TV this General Honore 
came in, and he says, ``We are going to do this, and we are 
going to do that.'' I was not down there, but that is what they 
were reporting. And I do not always quote TV. So we need a 
General Honore down there.
    Mr. Nungesser. He was at my office yesterday. Absolutely, 
we need somebody on the ground that can kick some butts and 
make this happen. We have lost some battles, sir. We can win 
this war. We can save our marsh. We can save our heritage. But 
it is going to have to happen quickly. It is going to have 
somebody with the authority to get all the equipment necessary, 
wherever it may be, to do whatever it takes to keep the marsh 
out, to do whatever it takes to pick it up, and have the heart 
and the passion to do it. And whether that is somebody through 
the Coast Guard--I do not think there is a person at BP that 
has that will and that direction.
    Senator Burris. Now, was this question raised with the 
President when he was down there?
    Mr. Nungesser. Absolutely, and the President told Admiral 
Thad Allen he wanted people on the ground that could make 
decisions.
    Senator Burris. Why isn't Admiral Allen making the 
decisions then?
    Mr. Nungesser. You are going to have to ask him. I just do 
not see--I am still sitting at the table with BP, I call them 
the guy with the red hat, the contractor, and the Coast Guard, 
and they are looking back and forth at each other while that 
oil continues to come in.
    I am with you. We need somebody, one person, they are 
responsible, and it is all throttle ahead and we get this thing 
kicked. We can do it, and we are willing to help in any way, 
shape, or form. I have turned over all my duties as parish 
president, anything other than this spill, to my staff. I am 
spending 100 percent of my time on this, because without this, 
nothing else matters in Plaquemines Parish.
    Senator Burris. So you are making the recommendations, you 
and the mayor, and evidently the recommendations have hit 
bureaucracy, and there has to be a decision made on it.
    Mr. Nungesser. Well, if the Coast Guard is not doing it 
because of funding issues, there is a problem. If they cannot 
make BP do it on a local level and it takes 5 days to get up to 
Admiral Allen and he makes BP--like the berm issue--that is a 
problem. Somebody on the ground has to be able to make 
strategical, financial decisions quickly. We cannot wait now 3 
weeks for cleaning up the oil in Pass A Loutre. We get in a 
room and we say, ``What is the best way to go after this? Let 
us go attack it and do it with all forces.'' And we are not 
doing that. We do not have that person on the ground that if 
Admiral Allen says our local guys have authority, they are not 
using it. They are not using it to solve the problem and keep 
the oil out of the marsh.
    Senator Burris. Mr. Chairman, you all have more seniority 
in this body than I have. But I have also got a little 
experience in decisionmaking and being in government, and 
somewhere somebody has to take charge of this thing. Somebody 
has got to take charge. I do not know what authority we have to 
try to order somebody. I do not think we do, even if it is 
Homeland Security. If we do, let us get to the Chairman, let us 
get to the President, let us move today to get somebody in 
charge down there.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you. Senator Nelson.
    Senator Nelson. Senator, you have hit the nail on the head. 
What is the problem? The problem is command and control. I want 
to give you an example.
    A week ago I went to the incident command in Mobile--Mobile 
has jurisdiction--Mississippi, Alabama, and Florida, all the 
way over to the Big Bend area of Florida.
    Now, what I was told was that the Coast Guard was 51 
percent in command and BP the rest. And then I was told really 
the Coast Guard is 55 percent in command. Well, that is the 
problem. Nobody is in charge.
    Now, there is a way to solve this, and I do not want to 
sound like a broken record, but the finest command-and-control 
capability in the world is the U.S. military. And you have to 
give somebody with a clear chain of command that also has the 
capability of bringing together disparate parties, private 
sector and public sector agencies, and directing them to do--of 
cleaning up a problem and have some authority to make it happen 
and has the resources and that everybody knows that goes 
straight to the commander-in-chief. And until you do this, you 
are going to continue to have the same problem that you are 
having. You are going to continue to have the same problem that 
Florida had yesterday in not even being in the information loop 
when, in fact, the orange mousse is coming into Florida waters.
    Now, I mean, you can lead a horse to water, but you cannot 
make him drink, Mr. Chairman. And how many more examples of 
this do we have to say until the command-and-control structure 
is changed? You cannot leave BP in control of this because they 
are not going to get it done. And you cannot have this kind of 
delay that is going over and over until somebody with authority 
such as Admiral Allen approves it or when they come to their 
Senator and something gets done because we start rattling the 
cage.
    This is the long and short of it, and this thing is going 
to go on for some period of time because as much oil as is out 
there in the Gulf, just think of the far-reaching effects when 
the wind starts shifting and it goes in other places. And you 
all have hit the brunt of it.
    I would hope that someone would be listening to the pleas 
of these local officials and the pleas of the local officials 
through their Senators to change this command structure. It 
does not mean that the military has to do the work. It is 
setting up the command structure and having people responsible 
to that command structure in order--you cannot split it 51-49. 
That just does not work in a situation like this. Otherwise, 
you have, what you all pointed out, people out there with cloth 
wiping off the blades of the marsh grass. And that does not do 
anything.
    Mr. Nungesser. Makes the contractor a lot of money.
    Mr. Camardelle. Exactly.
    Senator Nelson. Amen. Thank you.
    Senator Pryor. Thank you, Senator Nelson.
    What we are going to do here is we said we would do a 
second round with this panel, so I would love to keep it very 
short. I just really have one question, because we have two 
other panels we would love to get to, and we will leave the 
record open for people to submit their questions in writing. 
But let me ask you, Mr. Cooper, just more of a background 
question on Louisiana. We are not a coastal State, so I do not 
know how this works. But the State of Louisiana, do you have 
any role in monitoring the oil rigs that are out there working 
off your coast or the companies that are working off your 
coast? Do you all monitor that at all? Or do you have any say-
so in who is out there and who is not.
    Mr. Cooper. Well, Mr. Nungesser comes from that industry, 
and he could answer that question probably better than I can.
    Mr. Nungesser. There are companies that do not really 
monitor--Clean Gulf, all the nonprofits, the Marine Spill 
Response Corporation (MSRC) that was started right after the 
Exxon spill, but there is no real State monitoring of the oil 
rigs. It is done on the Federal level. There are a lot of 
private nonprofits that watch over everything out there for oil 
leaks, for contamination. As you saw the other day, one of the 
Taylor rigs. But for another day, the MSRC group was heavily 
funded. I did oil spill response in Texas that was done first 
class by the MSRC group, that was heavily funded by the oil 
companies after Exxon, which has absolutely no assets. They are 
down there, but in name only. They are not equipped for this. 
And at a later date, that needs to be looked into by this group 
because whoever cut their funding, they were not ready for 
this. The warehouses were empty that used to be full of boom 
and so on and so forth.
    Mr. Cooper. And it is important this deep drilling is in 
national waters, and that is why we do not have that authority.
    Senator Pryor. I understand. I just did not know. Senator 
Ensign.
    Senator Ensign. Yes, I have two quick questions.
    One is for this Subcommittee's sake to clear up the idea of 
the berms and the barrier islands. I know that some have been 
approved. Is that all the ones that you need approved? Do you 
need more approved? What is the process?
    Mr. Nungesser. Yes, sir. In your booklet you have a copy of 
the plan.\1\ In red are the ones not approved; in green are the 
ones that are approved.
---------------------------------------------------------------------------
    \1\ The chart referenced appears in the Appendix on page 109.
---------------------------------------------------------------------------
    Senator Ensign. Why are ones not approved?
    Mr. Nungesser. That is a good question. The Corps of 
Engineers is still answering questions about the environmental 
impact of current flows, ridiculous questions, but we hope to 
get started on these six and have them approved before these 
six are finished so they can move right to them, because you 
would not build half a levee. We have to build the whole thing 
to keep it out.
    Senator Ensign. I mean, isn't that a huge issue----
    Mr. Nungesser. Absolutely.
    Senator Ensign [continuing]. Preventing this getting to the 
marshes.
    Mr. Nungesser. If we would have built it when we asked for 
it--the first berm was going in front of that island--we would 
have collected all that oil offshore, and those 400-plus 
pelicans that are dead, that rookery, that would have been 
protected. And so if that does not teach you something----
    Senator Ensign. Just to be clear, this is not something 
that BP can do. This is the Federal Government that has to 
approve these.
    Mr. Nungesser. Well, the Federal Government made BP pay for 
them.
    Senator Ensign. Right.
    Mr. Nungesser. And after the President went out there, the 
president of BP saw it, he agreed to pay for it.
    Senator Ensign. OK. Then the last question is to Mr. Cooper 
on the National Guard. I think your governor's request is 6,000 
additional National Guard.
    Mr. Cooper. Yes.
    Senator Ensign. What is the status on that? And what would 
they be doing?
    Mr. Cooper. I do not have the exact number, but it is over 
1,000 have been deployed, and they are doing a number of 
things. And I have to tell you that they are--and I think you 
guys will agree with me--the heroes in this response----
    Mr. Nungesser. Absolutely.
    Mr. Cooper [continuing]. As well as these gentlemen to my 
right, and they are doing a number of things. They are 
assisting in building land bridges, and you have seen some of 
the pictures from that. They are assisting in----
    Senator Ensign. But you need a lot more down there, is the 
bottom line?
    Mr. Cooper. Well, I think we--and one point I want to make, 
if I could, to keep in mind--and this was brought up--is that 
we are in the middle of--well, not in the middle of hurricane 
season. We are starting hurricane season. And we have talked 
about not having enough resources and personnel to respond to 
this. If a disaster, if a hurricane were to come and hit 
Louisiana or any of the coastal States, it is going to go 
further into the marshland; it will go further into the other 
States that have been mentioned. And if there are not enough 
resources and personnel at this point, how can we have the 
assurances there are going to be enough after a hurricane?
    Senator Ensign. OK.
    Mr. Cooper. But what I would say is that--and that is where 
the National Guard--I mean, they are basically the go-to guys 
at the State level and at the local level if there are any 
needs that are unmet, and they are doing a number of things, 
and they certainly would take on more of a role after a 
hurricane to get to assist----
    Mr. Nungesser. They took the vacuum trucks out there to 
kind of embarrass BP into paying for them. They are out there 
vacuuming up the oil right now, the National Guard is.
    Mr. Cooper. They are dropping sandbags, they are filling 
sandbags, as he indicated. They are coming up with new 
technologies and talking about using barges and putting 
vacuums, that was a Guard idea. That is my understanding.
    Senator Ensign. How important are the berms also for the 
hurricane season?
    Mr. Nungesser. Well, absolutely, if we get a tropical 
storm, it will pick this oil up, bring it inland, and in a 
matter of hours it will drop it across the coast and destroy 
all the marsh all at once. We altered the coastal plane to make 
these berms that would give us--that were small enough, yet big 
enough to give us at least a fair chance of keeping that oil 
out of our marshlands.
    Senator Ensign. I hope the Administration is listening so 
that they can get some people on this and get those approved as 
quickly as possible.
    Mr. Nungesser. Thank you.
    Mr. Cooper. And, sir, if I could, one other thing. It is 
just not the parishes that have been impacted to date. It is 
the parishes to the west that we are looking at protective 
measures that need to be approved so that if a hurricane does 
come through there, that they are protected as well.
    Senator Ensign. Thank you. Thank you, Mr. Chairman.
    Senator Pryor. Senator Landrieu.
    Senator Landrieu. Just a couple of quick points, and I am 
anxious to move to the next panel. But the berms that are in 
place now are there because basically the President directed 
that they be built when he came down to meet with you all 
because you have been so--so I think we should give credit 
where credit is due.
    Mr. Nungesser. Absolutely.
    Mr. Camardelle. Exactly.
    Senator Landrieu. Now, we may be able to afford to build a 
berm all the way from Florida to Texas, but that is something 
that the other States are going to have to discuss.
    Second, I agree, Senator Nelson, with you about the 
military, but the Coast Guard is the military, so this is an 
issue that we have to discuss to figure this out. Whether the 
Coast Guard should stand down for the Navy or the Army, I do 
not know. But we have resolved today that the command structure 
is broken. Exactly how to fix it, we need some more discussion.
    And, finally, I want to ask this question: Didn't BP give 
every State $25 million? And if so, Mark, could you just 
briefly say how you are spending your $25 million? Did any of 
it go to the parishes? If not, what other priorities did you 
all use it for? And did Mississippi get $25 million and Alabama 
get $25 million and Florida?
    Mr. Cooper. I am not sure about those other States, but I 
believe they did. I know the way that it was set up is that at 
the parish level, they got a $1 million grant----
    Senator Landrieu. And each parish got $1 million. I do not 
know if the counties, other counties got $1 million. And I will 
ask you all for the record how you spent yours. But are you all 
going to send any of that to the parishes? Or do you think you 
need it at the State level?
    Mr. Cooper. We are looking at priorities and projects that 
have been identified right at this point, and we are looking at 
that. Absolutely, we want to make sure that the parishes are 
supported. But what we do not want to do is rob from Peter to 
pay Paul. We want to make sure we have the funding available to 
assist us as well as the parishes. And we want to make sure 
that BP is responsive to the parishes. And what I have heard is 
that from the $1 million grants there is still money available, 
and we are certainly going to fight to make sure they get 
additional funding.
    Senator Landrieu. Billy, have you spent all your million?
    Mr. Nungesser. No. We are about halfway through it. We are 
using it only for overtime, for our employees that are going 
out there rescuing animals, putting out boom, and then we also 
funded locally $1 million of parish money to build a potato 
ridge to protect a bunch of the oyster beds in lieu of getting 
the berms built. We are already doing that work on our own.
    Senator Landrieu. And, Mr. Camarelle, did you get money 
from Jefferson Parish?
    Mr. Camardelle. Yes, Jefferson Council, Chris Roberts.
    Senator Landrieu. And Lafitte?
    Mr. Camardelle. Yes, ma'am. The parish did get $1 million.
    Senator Landrieu. OK. I think you all bought that boat that 
has been very helpful, which is good. But we have to get some 
more money flowing down to these locals, and I will wait for my 
next questions.
    Senator Pryor. Senator Burris.
    Senator Burris. I am fine, Mr. Chairman. I just got to say, 
we have to get control and command, and get somebody in charge 
down there. That is what we need, Mr. Chairman.
    Senator Pryor. Senator Nelson.
    Senator Nelson. I do not care who is in charge. I want 
somebody with some authority, and it cannot be BP.
    By the way, the Coast Guard was not a part of DOD. The 
Coast Guard was a part of the Department of Transportation. And 
when we reorganized the Department of Homeland Security, we put 
them in there. Now, it is fine to have the Coast Guard in 
charge. Given the fact that they have so many other 
responsibilities around the world, if that is what the decision 
is, that is fine. But the present system is not working. The 
information is not flowing. The decisions are not timely. The 
resources are not produced. And as a result, you have a big 
mess with no command and control, and that has got to change.
    Senator Pryor. Thank you. Well, I want to thank our panel 
for being here today. You guys have been very strong witnesses, 
and we really appreciate your time. I know you have your hands 
full back home, and taking time to come up here, we really 
appreciate it.
    We are going to keep the record open for a few days, so you 
may get some written questions from the Subcommittee staff. But 
thank you for your time, and we are going to move on to the 
next panel.
    Mr. Nungesser. Thank you.
    Mr. Camardelle. Thank you.
    Mr. Cooper. Thank you very much.
    Senator Pryor. What I will do as they are switching out the 
table and the one panel is leaving and the second panel is 
coming up, I will go ahead and give my extremely brief 
introduction of each of our next two witnesses.
    The witness we are going to have is Juliette Kayyem, the 
Assistant Secretary for Intergovernmental Affairs, U.S. 
Department of Homeland Security. She was appointed to this 
position by Secretary Napolitano in March 2009. She has been 
involved in State and local homeland security issues for a 
number of years, has a good background that she brings to this.
    Also, we are going to have Rear Admiral Roy Nash, Deputy 
Federal On-Scene Commander, Deputy Unified Area Commander, U.S. 
Coast Guard. He is a rear admiral, served in the Coast Guard 
for over 30 years. We appreciate his attendance here today, and 
he will not actually be providing testimony unless he wants to, 
but he will be here to answer any questions that any of the 
Subcommittee Members may have.
    So why don't we go ahead and allow--this other group is 
leaving, and it looks like they are almost out the door, so, 
Ms. Kayyem, do you want to go ahead and start? Thank you.

 TESTIMONY OF HON. JULIETTE KAYYEM,\1\ ASSISTANT SECRETARY OF 
INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Kayyem. Chairman Pryor, Senators, I want to thank you 
for having us here today, and I thank the mayor and the parish 
president and Mark Cooper as well. We have been working with 
them not just for this incident but for years, actually, and we 
hear what they are saying. So let me tell you a little bit 
about our response from this or State, local, and Federal 
integration perspective to the British Petroleum Deepwater 
Horizon incident.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kayyem appears in the Appendix on 
page 129.
---------------------------------------------------------------------------
    I am, as you noted, a former homeland security adviser. I 
know the importance of State and local officials in terms of 
response and response capabilities and response knowledge. We 
sought to learn the lessons from the past and use the local 
knowledge and experience to inform our decisionmaking for this 
event. And so let me tell you a little bit about where we were 
and then where we are now.
    As you know, and as you have heard in the previous 
testimony, a lot of discussion about these Area Contingency 
Plans (ACPs), and these plans are formed with the States, 
localities, and the Coast Guard to determine what to do in the 
event of an oil spill.
    Those plans are basically--when you asked what are the 
plans, those were the plans that everyone had worked around. It 
gave us the numbers for the boom. It told us where we would 
want facilities and other needs addressed. These plans were 
written by a committee of local, State, and Federal officials 
from multiple disciplines, specify what types of actions would 
be taken to respond to an oil spill and what methods would be 
used to protect resources. The ACPs outline all aspects of the 
response from establishing information channels to identifying 
target areas for boom deployment.
    Following the oil rig explosion, the Federal on-scene 
coordinator worked with these State and local leaders to review 
these plans, and where they were not ideal or where they were 
not responsive, they were changed. Recognizing the importance 
of the State and local knowledge and State and local know-how 
in terms of what was going to be coming, on April 26, 2010, 
which was the Monday, I forward-deployed to the Unified Area 
Command in Robert, Louisiana, at the direction of Secretary 
Napolitano and former Coast Guard Commandant Admiral Thad 
Allen, now the National Incident Commander.
    Upon arriving in Louisiana and recognizing at that stage 
what we were likely to face--and certainly I think we were all 
anticipating, although not ideal, that this would continue for 
some time--I visited with each of the governors in the four 
Gulf States. I participated in the flyovers to assess what was 
going on and then worked with the State and local elected 
officials, the ones you heard today, to determine what might 
need to be done in the future, because what we wanted was this: 
We wanted to hear the complaints first and to be able to answer 
them as quickly and expeditiously as possible. And so what you 
did not want was--and a lot of those complaints or concerns 
were coming from the mayors, the parish presidents, whoever 
else that you heard here.
    So what we started almost immediately was a daily 
interagency, intergovernmental affairs call to maintain 
continual coordination between all of the Federal agencies, so 
the Coast Guard is running the response, but you know the 
Department of Interior is involved, Occupational Safety and 
Health Administration (OSHA) is involved for worker safety 
issues, the Department of Labor is involved. We wanted to make 
sure that all the Federal partners were listening and hearing 
about the concerns on the local and State level.
    By May 2, 2010, Secretary Napolitano and Secretary Salazar 
led a conference call with governors and their staffs and 
followed up with another conference call on May 4. That has now 
become a daily conference call with the governors. We also have 
daily conference calls with the mayors and the parish 
presidents, and the idea is to hear what the problems are 
first.
    These calls offer an opportunity for the governors and 
locals to obtain the most current information about what we 
know is going on, how many assets they have out there, what is 
happening with the loop current and the flow rate and 
everything else, and to engage in a dialogue with the senior 
administration officials who are overseeing the response. I 
will tell you we have had at least three phone calls with the 
governors of the eastern seaboard in anticipation of what could 
happen if the oil hits the loop current.
    By May 5, intergovernmental affairs personnel were deployed 
to all of the command posts, and subject matter experts were 
deployed to each of the State Emergency Operations Centers. 
That is important to note that we are in the State Emergency 
Operations Centers. The State governments in the affected areas 
were encouraged to send top officials to the area command and 
incident command posts. I think that is actually where Mark 
Cooper now sits. And this deployment has ensured seamless 
integration of State, Federal, and local response efforts. 
These initial channels worked well, but we were trying to keep 
finding new ways to coordinate with State and local partners.
    One of these ways was the parish president liaison officer 
program. This was a program that we have started. We have 
extended it through the Gulf. The parish presidents spoke about 
it, and it is to put Coast Guard officials with decisionmaking 
authority into the parish presidents' and the governors' 
offices specifically to handle immediate needs.
    It was important to us that we had the decisionmaking 
authority at the lowest level possible, so when we are asked 
who is in charge, well, the president is in charge, but we 
wanted to ensure that for most issues the decisions could be 
made quickly, swiftly, and effectively to stop the oil from 
coming aboard.
    With the designation of this event as a Spill of National 
Significance on April 29 and, of course, the designation of 
former Coast Guard Commandant Admiral Thad Allen as the 
National Incident Commander on May 1, the command structure was 
elevated to enhance operational and policy coordination across 
the Federal Government.
    One of Admiral Allen's first actions at the National 
Incident Command was to establish this Interagency Solution 
Group--Senator, you mentioned it--which I also direct; I am 
dual-hatted--as both related to but separate from my role as 
intergovernmental affairs. But it is important--those are 
related because really the issues that we are addressing under 
the National Incident Command--flow rate, new technologies, 
claims--are the ones that we are hearing from the State and 
locals.
    This working group is embedded in the National Incident 
Command at Coast Guard headquarters and has representation now 
from 18 agencies, because the issues that are being addressed 
here now are not simply the response. They have to do with, as 
the president has committed, making people whole again.
    The Interagency Solution Group works to help answer 
questions and concerns that arise from the field in a clear and 
comprehensive and timely manner, and we also try to serve as a 
conduit to the other Federal agencies.
    We have worked hard to leverage the knowledge garnered and 
lessons learned from the past, both successful and, to be 
honest, unsuccessful, while at the same time seeking to 
institutionalize the involvement of local and State officials.
    We recognize that the panel here before is going to know 
more on the local and State level than we do, but we have 
worked with them for years. The Coast Guard has worked with 
them for years. And so the friendships and the knowledge that 
they share together have helped in this event.
    We have done this cooperative spirit, not without its 
flaws, as you heard, while working with the responsible party 
to ensure that information is being shared in a coordinated, 
effective manner. BP is responsible. The polluter pays in this 
instance, and we know that, and we remind and direct BP of that 
every day.
    I want to say one more thing. We have continued to improve 
and expand the mechanisms of communication to ensure that our 
partners have the information and access they need to respond 
to this incident. And we are going to be receptive and 
responsive to the concerns that you heard in the previous 
panel, because if we are not, the effects of it will be, simply 
not today, but in the years to come.
    I am happy to answer any questions, as is Admiral Nash, 
regarding the response and the responsiveness of the Federal 
Government to this incident.
    Senator Pryor. Admiral Nash, do you have an opening 
statement that you would like to make?
    Admiral Nash. I have not prepared one, but I can make some 
comments if you would like.
    Senator Pryor. Go ahead, if you are comfortable doing that. 
We would like to hear from you.

 OPENING STATEMENT OF REAR ADMIRAL ROY NASH, DEPUTY FEDERAL ON-
  SCENE COMMANDER, DEPUTY UNIFIED AREA COMMANDER, U.S. COAST 
                             GUARD

    Admiral Nash. Yes, sir. The structure that we are following 
is a Unified Area Command. I just wanted to kind of describe 
how that is working. The Coast Guard is a Unified Area Command. 
The Federal On-Scene Commander is in Robert, Louisiana, and 
there are incident command posts in Mobile and Houma. Those 
folks in charge at those offices are Coast Guard captains that 
are directing Federal on-scene coordinator duties in the field 
along the waterfront and offshore.
    The strategies that they are following involve coordinating 
the unified response, directing BP, and working with partner 
State and local agencies. The goals are to secure the source of 
the leak, to contain oil released from the well, to disperse 
oil not contained at the wellhead, to reduce the impact to 
wildlife and marshlands, to use innovative methods like in situ 
burning to corral the oil and burn it offshore, and to boom oil 
offshore and corral it with skimmers such that it is not 
reaching the coastline, and also to skim in the near-shore 
area, and finally, the booming strategy, should the oil move to 
the coast, to have a booming strategy and implement the Area 
Contingency Plans in terms of using booming strategies to keep 
the oil out.
    That concludes my statement, sir.
    Senator Pryor. Thank you very much.
    Let me go ahead, if you do not mind, Admiral Nash, and I 
will start with you. Maybe we just see and hear the bad news, 
but I think the public perception is and our perception is that 
there is a lot of oil floating around there in the Gulf of 
Mexico that is not being addressed. There are not boats out 
there trying to skim it or soak it up or vacuum it up, whatever 
the technology may be.
    Do you know how many vessels there are currently in the 
Gulf that are out there trying to address the oil that is 
actually in the water?
    Admiral Nash. Yes, sir, I can give you a statistic from 
today. We are using vessels of opportunity, which would include 
vessels from local fishermen, among others, and the totals are 
in the over-2,000 range today to clean up the oil.
    Senator Pryor. When you get a fishing boat out there, what 
are they doing? Do they have equipment on board that you have 
given them to help clean up? Or are they putting booms out? Or 
what are they doing?
    Admiral Nash. Yes, sir, they are helping us tend booms. 
When you put a boom out, they need to be tended because the 
current takes them sometimes away from where they were placed, 
so there is boom tending. There is also some fishing vessels 
using their fishing nets to collect some of the larger tar mats 
and take them over to a barge that has a clamshell that lifts 
that tar mat out of the water. So they are using some 
innovative methods on the water.
    Senator Pryor. It sounds like, though, with millions of 
gallons out in the Gulf, I mean, it sounds like a lot of 
vessels, but it also sounds like you are only getting a small 
percentage of the oil. Is that fair to say?
    Admiral Nash. Well, the oily water mixtures recovered as of 
today were 431,000 barrels, and so that is today's number, sir.
    Senator Pryor. Four hundred thirty-one thousand barrels of 
oil recovered?
    Admiral Nash. That is an oily water mixture, sir.
    Senator Pryor. And do you know how much oil and how much 
water that is?
    Admiral Nash. I do not have that number for you, sir.
    Senator Pryor. OK. Let me ask you, Ms. Kayyem, you heard 
today a lot of frustration from the local folks, and I am sure 
that the panel we had today was really just representative of a 
lot of folks on the Gulf Coast, not just in Louisiana but going 
all the way over to Florida. But you also said that you want 
the ability--part of your plan is the ability to have local 
decisionmaking. But apparently there is a lot of frustration 
with that, and it sounds to me like the system that Homeland 
Security has in place or the system that these plans put in 
place is not working very well. Would you like to comment on 
that?
    Ms. Kayyem. Certainly we have heard these concerns, and so 
just to put some of it in perspective, when we started the 
parish president liaison program--and that is consistent with, 
I think, where emergency management and others have gone in 
terms of to try to--I know everyone wants a person in charge, 
but really at the pace that we are going at with this spill and 
how long we are looking at it, what you want is the decisions 
to be made on the local level. Because this is a Spill of 
National Significance and the Coast Guard in charge--BP is the 
responsible party, but the Coast Guard is in command, and the 
unified command.
    We want those decisions to be made by senior members of the 
Coast Guard so that--these are decisions like: Where do we move 
the boom? How do we clean it? Overnight the boom gets damaged. 
All sorts of decisions are being made at such a pace. We did 
not want those to have to go up to the unified command. And 
those decisions are being made all the time. Those are not the 
decisions that you heard about today. And so I want to make it 
clear to you every day scores of decisions are being made at 
that level. You do not want the person in charge in Robert, New 
Orleans, or wherever else. You want them.
    On big issues like the berm, not only--and you heard about 
the pace by which we got the Army Corps of Engineers to approve 
it, to assess it--and we are not just approving it for 
environmental purposes. One of the things we need to look at is 
its effectiveness to stop the oil spill. And so the 
Administration's approval of the first seven, I believe, is to 
also assess whether it will be effective in terms of this 
spill. National Incident Commander Thad Allen directed BP to 
pay for over, I think, $300 million of that at this stage and 
will continue to do so if it is an effective procedure. As you 
know, it is going to take awhile for that to be built.
    So there are decisions, and then there are the big 
decisions, and we hear--we are moving as dynamically as we can 
on those.
    Senator Pryor. Let me ask one last question, and then I 
will turn it over to Senator Ensign. That is, you mentioned a 
couple of times already that BP is the responsible party. To 
the best of your knowledge, is BP balking at anything right now 
in terms of are they balking at paying for things or doing 
things? Are they saying no to anything?
    Ms. Kayyem. I think you have to ask what specific 
operational demands are being made of them on the unified 
command, but something I can speak to, which is, of course, a 
big issue right now, is how do you make the people of these 
affected States whole again. I was at the meeting yesterday 
with Admiral Allen, with BP, in terms of the claims and making 
people whole again, and the integrated services teams that are 
being established under the National Incident Command. We made 
it clear to them that whatever they thought was being effective 
was not. And a lot of it is transparency, to see what the 
numbers are like and who is being impacted.
    Right now under the law, BP has 90 days to determine 
whether a claim is valid or not, so it is hard to tell, at 
least under that regime, whether any delays are a no or they 
are just looking for more paper. We will know after the 90 days 
of the first claim in that issue whether it is, in fact, a no.
    Admiral Nash. Sir, I have not heard or experienced a 
balking when we have required additional equipment, people, or 
resources to be applied to the problem, sir.
    Senator Pryor. And I will just note for the record, 90 days 
is a long time in this circumstance.
    Ms. Kayyem. Yes.
    Senator Pryor. I know that is the law, but that is a long 
time.
    Ms. Kayyem. Yes.
    Senator Pryor. Senator Ensign.
    Senator Ensign. A couple of questions. One is when plans 
were supposed to be in place and nobody has said worst-case 
scenario could ever happen--beyond worst-case scenario has 
happened. What is the Federal Government's assessment now of 
the worst-case scenario? Going around Florida? Going up the 
east coast? What is the complete worst-case scenario, and what 
is the Federal Government's plan for that worst-case scenario?
    Ms. Kayyem. Do you want to start?
    Admiral Nash. Sir, our approach to the worst-case scenarios 
would continue to be to get the resources out there. As you 
have indicated, when you get beyond scenarios that have been 
contemplated, we are reaching out globally to pull a maximum 
number of skimmers and vessels that can remove oil from the 
water out there. We will continue to bring global fire boom to 
do the in situ burning and just continue to increase the 
resources on the water and try and get this under control while 
it is still in the Gulf of Mexico and moving the way it has 
been moving.
    If the loop were to open up, we would consult with our NOAA 
advisers that are on our team to see where that oil would go 
and how much might go and what form it would be in.
    Senator Ensign. The reason I ask the question is it seems 
like the worst case keeps happening. I think we should be 
assuming worst case. And why aren't those kinds of resources 
being brought to bear right now? In other words, why aren't 
resources coming in? Wouldn't it be a lot better to prevent the 
worst-case scenario from happening with a lot more resources? I 
mean, we keep hearing about the lack of skimmers. We hear about 
the lack of resources, not enough boom; too slow of an approval 
process for the berms; all of those things happening. Instead 
of just thinking, well, maybe the worst case, we will have to 
react to it then, why aren't we trying to bring everything in 
now? You just said, well, then we would call in global 
resources. Why aren't we bringing those global resources in 
now?
    Admiral Nash. I may have misspoken. We are. We are working 
on bringing all global resources to bear on this, and at the 
same time continuing to work at the source. There are two wells 
being drilled to cap this well leak. There is also a dispersant 
applied. It is an innovative application down near the source 
that uses much less dispersant, breaks the oil up so less 
wildlife will ultimately be impacted. And also we are bringing 
skimmers from around the world and vessels to operate those, 
and that is going forward, sir.
    Ms. Kayyem. Senator, if I could say on that point, the 
potential, for example, of the oil hitting the loop current has 
been something we have been talking about for about 3\1/2\ 
weeks, and it is such a delayed response in many ways because 
you are waiting to see what happens. In anticipation of that, 
we have worked with all the States up to Maine in terms of the 
Coast Guard has worked operationally, we have worked 
intergovernmentally to say the first thing is look at your Area 
Contingency Plan.
    We were surprised the extent to which a lot of folks did 
not know they had one and did not know what it said. So look at 
it now and determine whether it is protecting the areas you 
want protected in terms of priorities and is utilizing all the 
resources of the Federal, State, and local governments. And so 
that is our first message to them.
    A lot of these things, we have a lot of boom being ordered, 
a lot of it coming aboard, working with a lot of countries for 
global orderings. One of the challenges here is, for example, 
you cannot put boom out before the oil is there or before the 
oil could get there quickly because it will get damaged. We 
have already seen it with boom that is already in the Gulf. So 
some of this is just anticipating capacity and anticipating--
and the Federal Government informing the States and localities 
in terms of what we might anticipate if it hits the loop 
current, for example.
    Senator Ensign. Thank you.
    Senator Pryor. Senator Landrieu.
    Senator Landrieu. Thank you.
    Let me just begin with you, Admiral Nash, and I want to say 
for the record I have the greatest respect for Admiral Thad 
Allen, and he is doing a fine job under very difficult 
circumstances, and I think we have just got to work out some of 
these issues in terms of control and payments and local 
control. But I want you to comment on the One-Gulf Plan that 
the Coast Guard established. The last published update was May 
2008. I think the first plan was published in July 2005.
    Does the One-Gulf Plan that you all are operating under 
have a proposal to cap a well if there is a major blowout? If 
so, how have you activated it? If not, why not? Does the One-
Gulf Plan contemplate more direct assistance from local 
officials that might happen to know where the oil is coming and 
where it is every morning when they wake up right there next to 
it?
    So take the first question. Can you comment about the One-
Gulf Plan? In your view, is it sufficient? Because it does not 
seem like if we have a plan it is working very well, and I 
would like to get you on record about it.
    Admiral Nash. Ma'am, I would like to get back to you with 
the specific details from the plan, but the goal would be to 
eliminate the source at the wellhead. And so that has been the 
goal, to eliminate the source of the oil at the wellhead.
    Senator Landrieu. But does the plan contemplate this amount 
of oil, do you know, yes or no? Or should we get back to you on 
that?
    Admiral Nash. I would like to get back to you on that.
    Senator Landrieu. OK. The other point I would like to make 
to you, Admiral, is we understand or we know about the Vessel 
of Opportunity Program. It has been written about in a thousand 
articles. I visited--I was on one of the vessels last week. But 
you heard the testimony today. The fishermen that BP has hired 
under your direction to be on vessels of opportunity, did you 
hear what Mayor Camardelle said? They called him from the mast 
of a boat with tears in their eyes or at least in their voice. 
They want to come home to protect their island where the oil 
is, and the Vessel of Opportunity Program, which you all keep 
talking about, has them 150 miles away from where the oil is.
    So I do not really want to hear that much more about the 
Vessel of Opportunity Program because my local elected 
officials do not think it is working. The only way these 2,000 
boats that are being employed in my view will work is if you 
give control of them to the local officials and let them send 
them out every day. They obviously know where the oil is. I 
wish you would consider that, where the oil is.
    Let me ask you, Ms. Kayyem, in your testimony you noted 
that the 2010 Spill of National Significance exercise 
identified potential information gaps. Would you please for the 
record testify as to what some of those primary gaps were?
    Ms. Kayyem. Primarily--it is interesting--when I played in 
that exercise, a lot of times it was clear that the Coast Guard 
communication with the people that they normally work with for, 
say, an Area Contingency Plan, the harbor masters, the 
emergency manager, whatever, a lot of times because that is 
such a specialized and professional group of people, their 
decisions were not known to the mayor or the governor or 
whoever else.
    So what we tried to do, and learned the lessons of that, 
and what we are trying to do here is link the operational side. 
And you saw it here. The three elected officials here or 
somebody who works for the governor are now very intimately 
aware of the operations. But as you know, in crises sometimes 
the operations and the electeds are a gap.
    So part of my role in that exercise and my role under the 
direction of Secretary Napolitano was to help fill that gap. 
And so that is the daily phone calls--we get asked questions in 
the morning. We need an answer by the evening. If we do not 
have an answer, we need an explanation of why the answer, where 
is the boom. We get reports of damage boom, for example, claims 
concerns, or whatever else. So I think that was one of the big 
lessons of that exercise.
    Senator Landrieu. OK. But I also hope--and I will just end 
with this--that you understand, based on testimony after 
testimony after testimony, that the only boom that works is the 
ocean boom. The other boom is not working well. It only works 
in calm seas. It breaks up easily. So I hope we do not spend 
the next 60 days on phone calls talking about boom and move to 
some other things that might work--vacuums, bigger vacuums, 
oil-water separation equipment, skimmers, international 
operators that can come in. So I hope I am not on calls, which 
I have been the last couple of weeks, about boom because I have 
about had it up to here with that.
    And, Mr. Chairman, I unfortunately have to slip out to 
another meeting. I will not be here for the third panel. But I 
have met with these gentlemen privately in my office and have 
had many conversations with them and will continue to, so I do 
not want them to think I am not interested in discussing BP's 
claims process, which is a big problem. And we do not have--
even though they are trying hard, we do not have independent 
verification even of what claims have been filed. We do not 
have that information today.
    Senator Pryor. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman, and I, too, am way 
overdue for another meeting, so I am going to slip out as well.
    Madam Secretary, Admiral, thank you for your public 
service.
    Admiral you mentioned in response to Senator Pryor's 
questions that there are 2,000 vessels that are deployed as of 
today.
    Admiral Nash. Yes, sir.
    Senator Nelson. How many of those are government and how 
many of those are vessels of opportunity?
    Admiral Nash. I would say a very high number of them are 
vessels of opportunity. The number of government vessels is in 
the dozens. I can get a hard number back to you, sir.
    Senator Nelson. Of the 2,000 vessels, how many are in the 
Louisiana sector and how many are in the Mobile sector?
    Admiral Nash. I would have to get back with the specifics, 
sir.
    Senator Nelson. How would you respond to Senator Landrieu's 
statement that the vessel of opportunity is employed in a place 
where the oil is not?
    Admiral Nash. Sir, I would offer that the--it depends on 
the vessels of opportunity. Some of them are fishing vessels 
that can work further offshore. Our strategy would be to try 
and capture the oil that is more concentrated further offshore. 
So any chance we have of using skimmers or methodologies to 
collect oil further offshore is desired. But I also understand 
the need to collect oil near shore when it is near shore. So 
that is also probably a different size vessel, different 
seaworthiness category, and we have to be mindful of the safety 
of the men and women that are at work on these vessels of 
opportunity. And so it has to do with their seaworthiness and 
their demonstrated capability to actually work near shore or 
offshore, sir.
    Senator Nelson. If there are 2,000 boats that are deployed, 
how do you think you can explain the testimony that we just 
heard from the local officials that there are not boats there 
to address the oil coming in, coming into the passes, as we 
heard over and over today in the testimony?
    Admiral Nash. I cannot really point to the exact point in 
time what we are talking about and where the oil is. But one of 
our strategies has been to go where we can find the oil, and we 
have had overflights to try and identify where we can catch the 
oil before it comes into the passes. If it gets into the 
passes, there are pretty fast currents through those openings, 
and it is harder to deal with at that point because it is 
moving so fast. Some of these skimmers will only work in a 
current that is one knot, two knots. It is sensitive to sea 
state. As well, we have had bad weather and there are plenty of 
days where the sea state is too difficult for skimming 
operations. So it depends on the day, the weather, and the 
exact equipment that you use, and there is actually a lot of 
technologies and different types of skimmers as well. And so I 
cannot speak to the limitations of each and every one, but I 
would just say that it varies, sir.
    Senator Nelson. Is it standard procedure that the Coast 
Guard would have--in your area of operations that you would 
have a plan that you would know at any moment where a 
particular vessel was and what its capability was?
    Admiral Nash. We are working closely--this is a new growth 
kind of situation where we have this many vessels of 
opportunity, and we are working that command and control. And I 
absolutely understand your comments on that, sir. It is easy 
for us to know where our government vessels are with the 
command and control, and we are working a command-and-control 
arrangement so we know where these vessels of opportunity are 
as well, sir, along with the other folks that we are working 
with on this response.
    Senator Nelson. So as of right now, you do not have that 
capability?
    Admiral Nash. Well, I would like to get back with you to 
what percentage of that capability we actually have in place, 
sir.
    Senator Nelson. In any major disaster such as this and 
command and control, what I would suggest that you should have 
is what is standard operating procedure in any major military 
type chain of command, which is you have a map, you have a 
specific location of a specific vessel, and that changes. That 
way you know exactly what is there, where the reports of the 
oil are so that you deploy those assets to where the problem 
is. That is what we have heard from the local officials here 
today, that the information flow is not there in which a 
commander can make that decision.
    In addition, what we have heard today is that the Coast 
Guard has part of control of the operation, but BP has a part 
of the control of the operation, and therein the two do not 
talk. And, therefore, things that are happening are not getting 
done because there is not somebody in a chain of command that 
can say this is what we are going to do given the 
circumstances.
    Do you think that kind of system is being set up under this 
present arrangement?
    Admiral Nash. Yes, sir, and the example I saw was in Grand 
Isle Sunday, and I went into the station there, and they are 
working with the local folks there, and they have identified 
vessels of opportunity that are in a task force there, and they 
have AIS signals on those vessels. So they can see where those 
vessels are in Grand Isle and which ones are working near 
shore, just where they are.
    And so I do know if that is functioning there, and before I 
stated I knew that was true everywhere, I wanted to check on 
that. But that is the kind of system and command and control 
and capabilities-based vessel of opportunity system that we are 
aspiring to employ, sir.
    Senator Nelson. Admiral, would it surprise you that last 
weekend I asked of your incident command how many vessels were 
deployed off of Florida, and within the span of an hour and a 
half I got three different answers?
    Admiral Nash. I can look into that, sir, but----
    Senator Nelson. You do not need to. It happened. And that 
is part of the problem, that we are not responding because 
somebody does not know what is happening. And the communication 
is not there. That is why in talking with my Emergency 
Operations Center director yesterday, he said, ``How can oil be 
coming into Florida waters, in through the pass, into the 
inland waterway, and we are being told after the fact by the 
local officials that they are closing off the pass?'' I said, 
``How are they closing it off?'' He says, ``We do not know. We 
do not know if it is by booms or if it is by some other method. 
We do not know how many skimmers are out there.''
    The value that the Chairman and the Ranking Member have 
brought to the table today is to get you all to understand the 
lack of communication that is going on and how you are going to 
have to restructure this thing so that the communication flow 
helps you make decisions that are timely to the particular 
threat at the time. And I thank you for your public service. I 
ask you please to listen to the testimony that you have heard 
today.
    Admiral Nash. Yes, sir.
    Senator Pryor. Well, thank you, Senator Nelson.
    We are really over our time. I do have one last question 
for Admiral Nash, though. There have been some news reports 
about maybe the ocean floor having other fissures or leaks in 
it somehow. Do you have any evidence of that, that there may be 
other leaks going on out there?
    Admiral Nash. I do not have an official accounting of that 
for you, sir, but I do understand there are leaks out there. 
But I would need to get back with you more formally.
    Senator Pryor. But you think there are other fissures or 
other leaks out on the ocean floor besides just right there 
where the well is?
    Admiral Nash. I do not know for sure, sir. I am thinking 
that is a little out of my specific lane to--but I will look 
into it, sir.
    Senator Pryor. Okay, great. We are going to have some 
questions, I am sure, written questions that we submit, and we 
would love to have your quick response. Thank you very much, 
both of you, for being here. I appreciate you coming before the 
Subcommittee today.
    As our second panel is gathering up and leaving, I will go 
ahead and do the very brief introduction for the third panel. 
Our third panel is from BP America.
    First we have Ray Dempsey. He is Vice President of Strategy 
for BP America. He currently is part of the St. Petersburg 
Unified Command, which has been directing spill response 
efforts for the West Coast of Florida and is working with 
incident command centers throughout the Gulf Coast region. He 
will discuss BP's response plans and claims process that was 
set up as a result of the spill.
    Next is Darryl Willis. He is the Vice President for 
Resources, BP America. He is working as the head of the claims 
process for BP. He will not be providing testimony today, but 
will be available to answer questions about the claims process, 
which I probably have a few of those.
    Mr. Dempsey, would you like to go ahead and give us your 
statement?

  TESTIMONY OF RAY DEMPSEY,\1\ VICE PRESIDENT OF STRATEGY, BP 
AMERICA, INC., ACCOMPANIED BY DARRYL WILLIS, VICE PRESIDENT FOR 
                  RESOURCES, BP AMERICA, INC.

    Mr. Dempsey. Thank you, Chairman Pryor, and Ranking Member 
Ensign. My name is Ray Dempsey, Vice President for Strategy and 
Portfolio for BP.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dempsey appears in the Appendix 
on page 139.
---------------------------------------------------------------------------
    On May 6, 2010, I joined the St. Petersburg Unified 
Command, which is directing spill response efforts for the West 
Coast of Florida under the Area Unified Command. I also oversee 
the St. Petersburg Joint Information Center, where BP works 
with the Coast Guard and alongside other Federal and State 
government representatives to share information on spill-
related efforts.
    I have worked for this company for 20 years. I volunteered 
for my current assignment because I want to help the company 
respond to and address the needs of the people in the Gulf 
Coast region.
    We are devastated by this accident, and it has profoundly 
touched all of us. My heart goes out to the families and 
friends of those who have lost their lives and those who are 
injured. We all want to do, and will do, the right thing for 
the people affected by this spill.
    The causes of the accident remain under investigation, both 
by the Federal Government and by BP. I am, thus, not in a 
position to respond to questions about the incident itself or 
the investigation.
    I would like to underscore that the global resources of BP 
are committed to our response. Nothing is being spared.
    Even before the Deepwater Horizon sank on the morning of 
April 22, 2010, an Area Unified Command was in place. Under the 
leadership of Admiral Thad Allen as National Incident 
Commander, the Area Unified Command is compromised of personnel 
from BP, Transocean, the U.S. Coast Guard, and the Minerals 
Management Service. We work closely with all the Federal 
agencies involved, the Marine Spill Response Corporation--which 
is an oil spill response consortium--as well as numerous State, 
city, parish, and county agencies. All subsea, surface, and 
onshore response efforts are coordinated through and must 
ultimately be approved by the Area Unified Command.
    We are also working with the full support of our industry 
colleagues and are making every effort to keep the public and 
government officials informed of what is happening.
    Meeting the needs of State and local governments remains 
critical. On May 5, 2010, we announced block grants of $25 
million each to the States of Louisiana, Mississippi, Alabama, 
and Florida to help address costs associated with this 
response. Following those initial block grants, we have just 
announced a second round of $25 million payments to 
Mississippi, Alabama, and Florida.
    Additionally, after discussing concerns about tourism with 
State and local officials, we made payments totaling $70 
million to Alabama, Florida, Louisiana, and Mississippi to 
assist those States in promoting tourism. At the direction of 
the Area Unified Command, we are taking actions across the Gulf 
region to minimize and mitigate the environmental and economic 
impacts related to this spill, both on the open water and on 
the shoreline. Details regarding our open water response are 
contained in my written testimony. I will focus now on our 
actions to protect the shoreline.
    We are implementing what the U.S. Coast Guard has described 
as the most massive shoreline protection effort ever mounted. 
To date, over 2 million feet of containment boom and over 2.5 
million feet of sorbent boom have been deployed to contain the 
spill. Seventeen staging areas around the Gulf Coast are in 
place to help protect the shoreline.
    Rapid response teams are ready to deploy to any affected 
area. Contingency plans for waste management to prevent 
secondary contamination are also being implemented.
    Wildlife clean-up stations are being mobilized, working 
with Tri-State, a leader in wildlife rescue and rehabilitation. 
We recognize that beyond the environmental impacts, there are 
also economic impacts. As the responsible party under the Oil 
Pollution Act of 1990, BP will pay all necessary clean-up costs 
and is committed to paying all legitimate claims for other loss 
and damages caused by the spill. We know that we will spend 
more than the $75 million liability cap established by OPA.
    BP initiated the claims process on April 24, and by April 
25, we had in place a 24-hour-a-day, 7-day-a-week toll-free 
call center. Potential claimants can also receive an in-person 
appointment at one of our 31 walk-in claims offices. Spanish 
and Vietnamese translators are available in several offices. We 
have also established an online claims-filing system.
    To date, more than 40,000 have been filed and approximately 
19,000 have been paid, totaling over $57 million. We are 
committed to ensuring that our claims process is efficient and 
fair, and we look for guidance to the established laws, 
regulations, and other information provided by the U.S. Coast 
Guard, which has over 20 years of experience in handling and 
resolving these types of claims.
    As part of our collaboration with State and local entities 
and residents, BP is supporting volunteer efforts in 
preparation for shoreline clean-up and is working closely with 
State and local entities on these efforts.
    BP is operating 25 community outreach centers across the 
Gulf Coast and in the parishes of Louisiana and the counties of 
Mississippi, Alabama, and Florida.
    BP is under no illusions about the seriousness of the 
situation we face. The world is watching us, and we know that 
we will be judged by our response to this crisis. I can assure 
you that my colleagues at BP and I are fully committed to 
ensuring that we do the right thing. We and the entire industry 
will learn from this terrible event and emerge from it 
stronger, smarter, and safer.
    I would like to introduce to you a technical expert that I 
have with me today. Darryl Willis is leading our claims 
efforts, and he is here to assist me in answering claims-
related questions. We are happy to answer your questions.
    Senator Pryor. Thank you. Let me go ahead and start here.
    You mentioned that you have put out X number of feet--I 
have forgotten what you said--of boom out there. It sounds to 
me like that has not been adequate since now the oil is getting 
onto the shorelines of the various States down on the Gulf 
Coast. One of the previous witnesses said that someone was 
putting out the wrong kind of boom. Did you hear that comment? 
Do you have any comment about that?
    Mr. Dempsey. Chairman Pryor, I did hear that comment from 
Ms. Kayyem, and I understand the concern. I think it is 
important to recall some other testimony by Ms. Kayyem where 
she described the Area Contingency Plans, which set forth our 
plans and our intentions for the way that we will protect the 
coastline. Those Area Contingency Plans are developed in 
cooperation with State, county, and local officials. Those 
plans identify the sensitive areas; they identify the 
appropriate booming strategies. The Area Unified Command 
ultimately is responsible for making the decisions to deploy 
boom.
    To your question, I expect that the Area Unified Command is 
watching and learning quite a lot based on what has occurred 
thus far in our response to this incident, and I am certain 
that we will make adjustments as appropriate to maximize 
protection of the shoreline.
    Senator Pryor. Does BP have an estimate of how much oil is 
actually in the Gulf, how much oil is on the surface of the 
Gulf or underneath as a result of this spill?
    Mr. Dempsey. Mr. Chairman, our response in this effort is 
not at all a function of exactly how much oil is there. We are 
deploying the resources, the assets, the equipment to address 
whatever is there. There is an independent panel that is 
accountable for the estimation of the amount of oil that is 
coming from the well. I am not an expert in that area, and I 
certainly would not attempt to offer a better conclusion or 
better suggestion than is being made by that group.
    Senator Pryor. Well, the reason I brought that up is 
because you talk about these plans and all this that everyone 
has. But I think it is hard to know if the plan is going to 
work unless you know how much oil is there, because the plans 
may be based on a certain amount of contaminated water, etc., 
and then, if it is double, triple, four times that, whatever 
the case is, maybe that plan does not work. But did you have 
any comments? I guess you do not know--that is not really your 
area to talk about as to how much oil is in the water. But you 
do not have any comment beyond that?
    Mr. Dempsey. Mr. Chairman, I do understand your question, 
and I believe it is certainly within the authority and the 
obligation of the Area Unified Command to make the decisions to 
deploy whatever resources are necessary to combat the oil on 
the water.
    Senator Pryor. Does BP have a budget for this clean-up?
    Mr. Dempsey. Mr. Chairman, I have not seen or heard of any 
indication of a budget. I can tell you that the full resources 
of BP are being deployed and brought to bear to support this 
response. It is the single most important priority in all of 
our company around the world.
    Senator Pryor. OK. Let me ask about the specifics of your 
claims process. One of the witnesses earlier--I believe it was 
the mayor, but I do not remember exactly. But one of the 
witnesses earlier said that some of his local folks--I think he 
said 37--have filed claims, maybe have not hear back yet, and I 
am curious about your process in terms of how rapidly you try 
to either accept or deny or ask for more information on those 
claims. What is your process there?
    Mr. Dempsey. Mr. Chairman, I will invite my colleague Mr. 
Darryl Willis to address your question.
    Mr. Willis. Chairman Pryor, let me say a few words about 
the claims process to date. As you heard my colleague say, we 
have paid just around 20,000 claims or so to date. In 
Louisiana, we have paid almost half those claims; 10,000 claims 
have been paid in Louisiana. Of the 10,000 claims that have 
been paid in Louisiana, about 60 percent have been paid to four 
parishes.
    The time it takes, to answer your question, from the time a 
person calls our 1-800 number to the time they receive a check 
from one of our claims offices--and I have traveled around to 
several of them, and I have seen this for myself--is about 7 
days on average, once they have provided the substantial 
documentation. I know that someone said during the testimony 
that we have 90 days by law. That is unacceptable. Our goal is 
to get a check into the hands of the folks of the Gulf Coast as 
quickly as possible.
    When I got involved in this process a month ago, it was 
going to take about 45 days for a person to receive a check. We 
have cut that down dramatically, and we are continuing to look 
for ways to improve it even further. The goal is to get money 
into the hands of the folks that need it the most as quickly as 
we possibly can.
    Senator Pryor. And what percentage of the claims have you 
denied so far?
    Mr. Willis. We have not denied any claims so far.
    Senator Pryor. Does that mean that you anticipate paying 
100 percent of those? Or does that mean that you are looking 
for more documentation and you are not sure about some of the 
ones that have not been paid yet?
    Mr. Willis. Of the ones that have not been paid, only 50 
percent of the claims that have not been paid, there are 
probably a variety of reasons why they have not. One is that we 
are getting about 1,500 claims a day, and it is taking, as I 
mentioned, about 7 or so days to get a claim paid. So you are 
constantly adding claims to the system.
    In addition to that, some people have filed multiple 
claims. In addition to that, we have people who are filing 
claims and who have decided not to pursue it. And in addition 
to that, we have some people who file claims who, for reasons 
associated with maybe thinking that they cannot sue if they 
file a claim, have decided not to pursue their claim.
    Then the last reason I would say is around the fact that 
some people are just slow to get their documentation in. But 
what we are continuing to do is to reach out to the community, 
to advertise the claims process via the press, even handing our 
flyers in local libraries to make sure the word is out that 
there is a claims process, we have the 31 claim centers across 
the Gulf Coast which are accessible to the people who need 
help.
    Senator Pryor. OK. Let me ask a few follow-ups there. Can 
people file their claims online, or is this----
    Mr. Willis. They can.
    Senator Pryor. OK. So how do they provide documentation 
online?
    Mr. Willis. What happens is people can go to our Web site 
at bp.com/claims and file a claim. What will happen is they 
will fill out a very simple application. Within a couple of 
days or less, they will receive a claim number. They can take 
that claim number with whatever documentation they need to 
bring into one of our claims centers, or they can mail it in, 
and their claim will be paid as long as the documentation 
substantiates their income. To date, we have had about 4,300 
claims that have been paid on our Web site. Ten of those have 
been in Vietnamese, 21 of those have been filed in Spanish.
    Senator Pryor. So it is not completely paperless or 
completely online. There is still a step where they have to go 
and show some documentation to somebody.
    Mr. Willis. Right. You can either drop it at a claims 
office, mail it in, or e-mail it in.
    Senator Pryor. Right. And you mentioned something that 
there may be some people who are not pursuing claims because 
they are afraid they will not be able to sue.
    Mr. Willis. Right.
    Senator Pryor. As part of the claims process, do the local 
people agree to not sue?
    Mr. Willis. Absolutely not. They retain all of their rights 
as they go through the claims process, and that is one thing we 
are trying to make sure is communicated effectively.
    Senator Pryor. All right. Are there any legal reasons that 
you are aware of why people would, by virtue of getting a 
claim, under any law, State law or whatever the case may be, 
that they might be forgoing their right to sue if they decide 
to later? Are you aware of anything?
    Mr. Willis. Not to my knowledge.
    Senator Pryor. OK. And I am sure that as you set this up 
you have some criteria on who can file, etc., and all that, who 
can make a claim. Who is not eligible to make a claim? How do 
you set your criteria up?
    Mr. Willis. As I have traveled across the Gulf Coast--and 
most recently I have made trips from Venice to Pensacola, 
stopping in Biloxi and Pascagoula, Mississippi, and Bayou La 
Batre, Alabama, I have come across a variety of people. I have 
come across fishermen. I have come across deckhands. I have 
come across net makers, actually a blind net maker in Biloxi, 
and I actually came across a lawn man in Alabama. And they were 
all filing claims, and in many cases I witnessed them leaving 
with checks. Anybody who has been hurt, harmed, or damaged by 
this spill and believes that they have a legitimate claim and 
can substantiate their loss is eligible to file a claim through 
our process.
    Senator Pryor. OK. Senator Ensign.
    Senator Ensign. Can you just walk us through, when you say 
documentation, what kind of documentation they need?
    Mr. Willis. So let me take you through the documentation 
for a deckhand, and this has been an issue in Louisiana, 
particularly in the office that I was directly involved in 
opening in Venice, where in some cases deckhands do not have a 
tax return. So we have tried to make our process as pragmatic 
as possible with a bias to getting money into folks' hands. So 
if you do not have a tax return, we will take a payroll stub. 
If you do not have a payroll stub for the month or for every 2 
weeks, we will take a deposit slip that shows how much you have 
made. If you do not have a deposit slip, we will take fish 
tickets or trip tickets.
    In the case of a deckhand, we would also make a quick call 
to the captain of the boat that you work on to confirm that you 
actually work on that boat and get a very simple letter from 
the captain saying that you work on the boat.
    All of that happens. The person walks out of the claims 
office with a check.
    Senator Ensign. And these are $5,000 checks or are these 
$2,500?
    Mr. Willis. These are the $2,500 checks that have been 
given out.
    Senator Ensign. OK. And how long is that supposed to last 
them?
    Mr. Willis. This will last as long as people are damaged by 
the spill----
    Senator Ensign. No. I mean, in other words, can they just 
do that one time?
    Mr. Willis. Absolutely. You do it one time, and as a matter 
of fact, last week we started rolling out the second wave of 
checks for the month of June to the same people who received 
compensation in May.
    Senator Ensign. Okay, so that is $2,500 for the month is 
what they are getting.
    Mr. Willis. Yes.
    Senator Ensign. What about if you are a small business 
owner?
    Mr. Willis. If you are a small business owner, if your 
claim is less than $5,000, it is a very simple process, and it 
is done relatively quickly. If it is larger than $5,000, it 
goes into our large loss claims process. That process is 
actually just spooling up because in order to declare a loss as 
a business for the month, we needed for the books to close for 
the month of May. So we started paying large loss claims last 
week. Last week we paid about 40 of those claims. The smallest 
one was just over $5,000. The largest one was $426,000.
    Senator Ensign. Are you comparing year to year? How are you 
comparing that?
    Mr. Willis. In the case of small businesses, we ask for tax 
returns for 1, 2, or 3 years, depending on the complexity of 
the claim, in addition to a P&L.
    Senator Ensign. P&L for the previous year so you----
    Mr. Willis. For the previous year and by month if 
necessary, because in many cases these businesses are seasonal, 
so whatever is the appropriate lens to look through.
    Senator Ensign. And what happens if these businesses, a lot 
of small businesses were already hurting in this country, and 
they go out of business in the meantime.
    Mr. Willis. Ten percent of all of the claims--let me back 
up. Five percent of all of the claims that we have received to 
date have been from businesses that have claims in excess of 
$5,000. Around 600 of them were sent checks immediately for 
$5,000, and their claims were put into the process. We are 
going to ramp that process up quickly to make sure we get hands 
into those businesses as fast as we can.
    Senator Ensign. And I know some of these questions you may 
not be able to answer, Mr. Dempsey, but take your best shot, if 
you can. If not, we would like written responses.
    For instance, we have understood that President Obama and 
your CEO have not met during this time. Is that correct?
    Mr. Dempsey. Senator Ensign, I have read that, and I 
understand that is the case.
    Senator Ensign. Do you know whether your CEO--and if not, 
if you can get that question to us--if the President has not 
reached out to your CEO, if your CEO has reached out to the 
President? If you can get that for us, I would appreciate that.
    Mr. Dempsey. I will.
    Senator Ensign. Second is that May 27 there was an ABC News 
report that said that BP refineries, ``have a systemic safety 
problem,'' and the bottom line is BP has 760 OSHA violations at 
various refineries; Exxon had only one. Do you have 
explanations why you would have so many and other companies 
would have so little?
    Mr. Dempsey. Senator, I cannot represent the safety records 
of other parts of our organization.
    Senator Ensign. If you could maybe get your company to get 
that answer for us, that would be very much appreciated.
    Mr. Dempsey. OK. We will.
    Senator Ensign. And, last, we have a situation where you 
heard from the local folks up here saying that they get the 
answers from the Coast Guard--they get approval from the Coast 
Guard. The Coast Guard then says BP will not pay. And yet BP 
has consistently--you said it again today: ``We will pay 
all''--the clean-up process and all that, and that is what they 
are largely talking about today.
    How do you respond when you heard--because you guys were 
sitting here--when you heard some of these local folks talking 
about--I mean, they are pretty heavily pointing the finger at 
you guys and charging you guys that you are not doing the job 
that you have promised to the American people and to the people 
of the Gulf Coast that you were going to do.
    Mr. Dempsey. Senator, I understand the frustration of the 
gentlemen from the first panel. This is a tragic and 
unprecedented event. I believe that the command structure is 
actually quite clear. Admiral Thad Allen is the National 
Incident Commander. All decisions about the tactics, the 
resources, and the efforts to address this spill are ultimately 
under his decisionmaking authority.
    I believe that the unified command is an important 
cooperative effort between the U.S. Coast Guard, BP, and 
associated State and local agencies.
    Senator Ensign. So if Thad Allen says, ``BP, pay that,'' 
you are going to pay it?
    Mr. Dempsey. I was encouraged to hear in the testimony from 
Rear Admiral Nash that, to his knowledge and from his 
experience, there have been no incidents where BP has not been 
prepared to cover the requirements and the resources for this 
response. BP is fully committed to deploying the full resources 
of our company towards this response.
    Senator Ensign. Do you think it is being done in a timely 
fashion? Does BP think that they are doing these things in a 
timely fashion? There is one thing to say yes. There is another 
thing to say yes in a timely fashion when the actual money for 
whatever is being done can happen and be effective.
    Mr. Dempsey. Senator, I will assure you that BP is not 
delaying the delivery of resources to support this response. It 
is important to note that in the unified command structure, 
there is indeed a decisionmaking process. As a part of that 
unified command, we have to operate within that process, and we 
are supportive of providing all the resources necessary to 
address this spill.
    Senator Ensign. Are the work rules that we heard about 
today--we have heard press reports, if it gets 90 degrees, 
people have to take breaks all the time. You heard these folks 
talking about it today. They are in a war down there. And is BP 
setting up those work rules or is the unified command, is Thad 
Allen setting up those work rules?
    Mr. Dempsey. Senator, I will reinforce that all the 
decisions about the operations, the tactics that are----
    Senator Ensign. When you hire a contractor, is BP or is the 
unified command setting up, when it gets over 90 degrees, you 
have to take a certain amount of time, you can only work 10 
minutes at a time, things like that that we read about in the 
press? Who is setting those kind of rules up?
    Mr. Dempsey. Senator, I would like to reinforce that there 
is a really critical priority we hold, which is to ensure the 
safety and the health----
    Senator Ensign. That is not the answer to my question. My 
question is: Who is setting the rules? Is it BP or is it the 
unified command?
    Mr. Dempsey. It is indeed unified command, Senator. It is 
their accountability to direct the resources that are being 
deployed in this response.
    Senator Ensign. I know that. I am saying the actual work 
rules themselves. Who is setting that up, like if somebody can 
only work 10 minutes at a time or 20 minutes at a time? 
Whatever those rules are, who is setting those rules?
    Mr. Dempsey. Senator, Unified Command makes those 
decisions. They are subject to and very focused on guidance 
from OSHA, departments of health, and other associated State 
and Federal authorities.
    Senator Ensign. That is what I needed. Thank you.
    Senator Pryor. Well, I just have a few more questions, just 
really follow-ups actually. When someone files a claim through 
your process, do you look for ways to mitigate the damages of 
their claim? In other words, if they say you owe them $5,000, 
do you look at it and say, ``Well, we think we do not owe you 
$5,000, but we owe you $3,000''? Do you do that? Do you make 
that kind of evaluation?
    Mr. Willis. Chairman Pryor, the bias is to get money into 
the hands of the people quickly, and the answer to your 
question is no.
    Senator Pryor. So as long as they can justify their out-of-
pocket losses, you pay 100 cents on the dollar?
    Mr. Willis. That is what we have paid so far.
    Senator Pryor. I want to ask about your large loss claims 
process. You mentioned that--I have forgotten the number that 
have come through, but it sounds like it is just really getting 
underway. Do you look at the mitigation of the damages or the 
limiting of damages in that circumstance? Because that is a 
little more complicated evaluation. At least in my mind it 
would be.
    Mr. Willis. It is a more complicated evaluation, and 
because it is just spooling up--and my experience so far has 
been every case is unique and different, and we are taking 
every claim on a case-by-case basis.
    For example, we just paid a large loss claim to a seafood 
processor, and we have had to modify the rules so that we could 
do the right thing. The bias here is to do the right thing. In 
the case of seafood processing, for example, you cannot wait 
until you declare a loss to get your claim paid because by the 
time you declare a loss, you are out of business. So we have 
augmented our rules to make sure we got money into the hands of 
a particular company in Louisiana so that they could pay their 
fixed costs and survive through this period of challenging 
times in Louisiana. So it varies case by case.
    Senator Pryor. And do you know if BP has any insurance to 
cover these type of payments?
    Mr. Willis. We are covering these payments ourselves.
    Senator Pryor. OK. So, in effect, you are self-insured?
    Mr. Willis. Yes.
    Senator Pryor. And you may not know this, it may be too 
detailed or out of your lane, but do you know if BP would be 
eligible for a tax deduction for these payments?
    Mr. Willis. Definitely out of my area of expertise.
    Senator Pryor. OK. And is BP alone in this, or are there 
other companies that you are working with on this particular 
well in the Gulf of Mexico that are stepping up to help?
    Mr. Willis. As the responsible party, BP was obligated to 
initiate the claims process, and that is what we are doing. 
Honestly, what I have been focused on is making sure that 
process gets up and running over the last 45 days, and that is 
what we are doing, and I have not worried too much about the 
other details.
    Senator Pryor. Has BP notified other companies they may be 
looking to them to help offset these losses?
    Mr. Willis. Our focus up to this point has been making sure 
that every individual fisherman, crabber, every small business 
that needs help from BP is getting it. That is where the focus 
has been so far, sir.
    Senator Pryor. Does BP have any plans to either compensate 
or at least consider compensating cities, counties and 
parishes, school districts, etc., for loss of tax revenue?
    Mr. Willis. There are three aspects to our claims process: 
There is the individual piece, there is the business piece, and 
there is also a government and municipalities piece. And any 
organization or business or person that feels that they have 
been damaged by the spill has every right to file a claim under 
our process, and we are getting claims in all three of those 
categories.
    Senator Pryor. OK. For Mr. Dempsey, let me ask you: Does 
the fact that BP is part of this Unified Command, does that 
limit BP's flexibility?
    Mr. Dempsey. Mr. Chairman, I think there are several 
examples where BP has observed needs expressed at the State, 
county, parish, and local level, where we have stepped in in a 
way that is above and beyond the efforts of unified command. I 
think an important example of that is in the case of the 
concerns about tourism marketing, and as I described in my 
opening remarks, we made payments totaling $70 million to the 
four States in the region--Louisiana, Mississippi, Alabama, and 
Florida--to support campaigns that those States would run to 
support their tourism industry within their respective States. 
We think it is really important that when we see opportunities 
to provide support in advance of dealing with losses later as 
claims, that it is in the best interests of all of us involved.
    Senator Pryor. Now, you are the Vice President of Strategy, 
and Senator Ensign a few moments ago asked about BP's safety 
record. I do not know exactly what your role is in terms of the 
Vice President of Strategy, but it would seem to me that one of 
the things you could be or should be working on is a strategy 
of not having as many safety claims as you have. Does that fall 
under your purview? Or does that go under somebody else in the 
company?
    Mr. Dempsey. Mr. Chairman, that is not my direct 
accountability, but I share your concern, and, frankly, I can 
assure you that all of us in BP share a concern about our 
commitment to safety. We are in the process of implementing a 
global operating management system, which is a framework within 
which we can assure the safe operations, both process safety 
and personal safety, throughout our operations globally.
    Senator Pryor. I have been watching BP's stock, and I 
notice it is not going in a positive direction right now. And I 
am curious if you have heard any discussions within your 
company about the implications of your stock price?
    Mr. Dempsey. Mr. Chairman, I will reinforce that 100 
percent focus in BP is on responding to this spill, and all the 
resources of the company are being deployed in pursuit of that. 
There have been reassurances to the employees and to the 
external community that we will not rest nor will we turn our 
attention or resources away from this response.
    I have not heard any specific concerns that relate to the 
share price and its implications for our continued commitment 
to this response.
    Senator Pryor. Have you heard or been party to any 
conversations at BP about the possibility that BP might have to 
declare bankruptcy as a result of this spill?
    Mr. Dempsey. Mr. Chairman, I have read of that in the 
media. I have heard no such suggestion, indication, or concern 
raised internally within our organization. I will reinforce 
that our focus now is on this response. We will not rest until 
we have stopped the leak, we have cleaned it up, and we have 
made it right.
    Senator Pryor. And how much money has BP spent so far in 
response to this?
    Mr. Dempsey. Mr. Chairman, my understanding is we have 
spent on the order now of $1.4 billion in this response.
    Senator Pryor. Is that a comprehensive number that includes 
the efforts to clean up the Gulf and also to compensate people?
    Mr. Dempsey. Mr. Chairman, it certainly is an intent to be 
a comprehensive estimate of the resources that have been 
deployed to this point.
    Senator Pryor. OK. Well, listen, I want to thank both of 
you all. I know that we will have some further questions for 
the record that we will submit in writing, and I really 
appreciate your being here today and appreciate your coming 
here and listening through a long hearing, as well as all the 
other participants and members of the media as well for sitting 
here and helping us work through this.
    Thank you very much, and what we will do is we will leave 
the record open for 15 days. What we will do is we will ask our 
various Senators and Senate offices to get us the questions to 
submit to all of our witnesses today, and try to get those back 
as quickly as you can. And I do not think there is any further 
business that we have to do today, so what we will do is we 
will adjourn the hearing, but I want to thank you all very much 
for your participation.
    [Whereupon, at 12:48 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8033.001

[GRAPHIC] [TIFF OMITTED] T8033.002

[GRAPHIC] [TIFF OMITTED] T8033.003

[GRAPHIC] [TIFF OMITTED] T8033.004

[GRAPHIC] [TIFF OMITTED] T8033.005

[GRAPHIC] [TIFF OMITTED] T8033.006

[GRAPHIC] [TIFF OMITTED] T8033.007

[GRAPHIC] [TIFF OMITTED] T8033.008

[GRAPHIC] [TIFF OMITTED] T8033.009

[GRAPHIC] [TIFF OMITTED] T8033.010

[GRAPHIC] [TIFF OMITTED] T8033.011

[GRAPHIC] [TIFF OMITTED] T8033.012

[GRAPHIC] [TIFF OMITTED] T8033.013

[GRAPHIC] [TIFF OMITTED] T8033.014

[GRAPHIC] [TIFF OMITTED] T8033.015

[GRAPHIC] [TIFF OMITTED] T8033.016

[GRAPHIC] [TIFF OMITTED] T8033.017

[GRAPHIC] [TIFF OMITTED] T8033.018

[GRAPHIC] [TIFF OMITTED] T8033.019

[GRAPHIC] [TIFF OMITTED] T8033.020

[GRAPHIC] [TIFF OMITTED] T8033.021

[GRAPHIC] [TIFF OMITTED] T8033.022

[GRAPHIC] [TIFF OMITTED] T8033.023

[GRAPHIC] [TIFF OMITTED] T8033.024

[GRAPHIC] [TIFF OMITTED] T8033.025

[GRAPHIC] [TIFF OMITTED] T8033.026

[GRAPHIC] [TIFF OMITTED] T8033.027

[GRAPHIC] [TIFF OMITTED] T8033.028

[GRAPHIC] [TIFF OMITTED] T8033.029

[GRAPHIC] [TIFF OMITTED] T8033.030

[GRAPHIC] [TIFF OMITTED] T8033.031

[GRAPHIC] [TIFF OMITTED] T8033.032

[GRAPHIC] [TIFF OMITTED] T8033.033

[GRAPHIC] [TIFF OMITTED] T8033.034

[GRAPHIC] [TIFF OMITTED] T8033.035

[GRAPHIC] [TIFF OMITTED] T8033.036

[GRAPHIC] [TIFF OMITTED] T8033.037

[GRAPHIC] [TIFF OMITTED] T8033.038

[GRAPHIC] [TIFF OMITTED] T8033.039

[GRAPHIC] [TIFF OMITTED] T8033.040

[GRAPHIC] [TIFF OMITTED] T8033.041

[GRAPHIC] [TIFF OMITTED] T8033.042

[GRAPHIC] [TIFF OMITTED] T8033.043

[GRAPHIC] [TIFF OMITTED] T8033.044

[GRAPHIC] [TIFF OMITTED] T8033.045

[GRAPHIC] [TIFF OMITTED] T8033.046

[GRAPHIC] [TIFF OMITTED] T8033.047

[GRAPHIC] [TIFF OMITTED] T8033.048

[GRAPHIC] [TIFF OMITTED] T8033.049

[GRAPHIC] [TIFF OMITTED] T8033.050

[GRAPHIC] [TIFF OMITTED] T8033.051

[GRAPHIC] [TIFF OMITTED] T8033.052

[GRAPHIC] [TIFF OMITTED] T8033.053

[GRAPHIC] [TIFF OMITTED] T8033.054

[GRAPHIC] [TIFF OMITTED] T8033.055

[GRAPHIC] [TIFF OMITTED] T8033.056

[GRAPHIC] [TIFF OMITTED] T8033.057

[GRAPHIC] [TIFF OMITTED] T8033.058

[GRAPHIC] [TIFF OMITTED] T8033.059

[GRAPHIC] [TIFF OMITTED] T8033.060

[GRAPHIC] [TIFF OMITTED] T8033.061

[GRAPHIC] [TIFF OMITTED] T8033.062

[GRAPHIC] [TIFF OMITTED] T8033.063

[GRAPHIC] [TIFF OMITTED] T8033.064

[GRAPHIC] [TIFF OMITTED] T8033.065

[GRAPHIC] [TIFF OMITTED] T8033.066

[GRAPHIC] [TIFF OMITTED] T8033.067

[GRAPHIC] [TIFF OMITTED] T8033.068

[GRAPHIC] [TIFF OMITTED] T8033.069

[GRAPHIC] [TIFF OMITTED] T8033.070

[GRAPHIC] [TIFF OMITTED] T8033.071

[GRAPHIC] [TIFF OMITTED] T8033.072

[GRAPHIC] [TIFF OMITTED] T8033.073

[GRAPHIC] [TIFF OMITTED] T8033.074

[GRAPHIC] [TIFF OMITTED] T8033.075

[GRAPHIC] [TIFF OMITTED] T8033.076

[GRAPHIC] [TIFF OMITTED] T8033.077

[GRAPHIC] [TIFF OMITTED] T8033.078

[GRAPHIC] [TIFF OMITTED] T8033.079

[GRAPHIC] [TIFF OMITTED] T8033.080

[GRAPHIC] [TIFF OMITTED] T8033.081

[GRAPHIC] [TIFF OMITTED] T8033.082

[GRAPHIC] [TIFF OMITTED] T8033.083

[GRAPHIC] [TIFF OMITTED] T8033.084

[GRAPHIC] [TIFF OMITTED] T8033.085

[GRAPHIC] [TIFF OMITTED] T8033.086

[GRAPHIC] [TIFF OMITTED] T8033.087

[GRAPHIC] [TIFF OMITTED] T8033.088

[GRAPHIC] [TIFF OMITTED] T8033.089

[GRAPHIC] [TIFF OMITTED] T8033.090

[GRAPHIC] [TIFF OMITTED] T8033.091

[GRAPHIC] [TIFF OMITTED] T8033.092

[GRAPHIC] [TIFF OMITTED] T8033.093

[GRAPHIC] [TIFF OMITTED] T8033.094

[GRAPHIC] [TIFF OMITTED] T8033.095

[GRAPHIC] [TIFF OMITTED] T8033.096

[GRAPHIC] [TIFF OMITTED] T8033.097

[GRAPHIC] [TIFF OMITTED] T8033.098

[GRAPHIC] [TIFF OMITTED] T8033.099

[GRAPHIC] [TIFF OMITTED] T8033.100

[GRAPHIC] [TIFF OMITTED] T8033.101

[GRAPHIC] [TIFF OMITTED] T8033.102

[GRAPHIC] [TIFF OMITTED] T8033.103

[GRAPHIC] [TIFF OMITTED] T8033.104

[GRAPHIC] [TIFF OMITTED] T8033.105

[GRAPHIC] [TIFF OMITTED] T8033.106

[GRAPHIC] [TIFF OMITTED] T8033.107

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
